<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                         THURSDAY, MAY 19, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:36 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Feinstein, Leahy, Mikulski, Kohl, 
Tim Johnson, Nelson, Tester, Landrieu, Murkowski, Alexander, 
Cochran, Collins, Ron Johnson, Blunt, and Hoeven.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF TOM TIDWELL, CHIEF
ACCOMPANIED BY KATHLEEN ATKINSON, BUDGET DIRECTOR

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Good afternoon. I'd like to call the hearing 
to order. And, welcome, everyone.
    This afternoon the Interior, Environment, and Related 
Agencies Subcommittee continues its budget oversight hearings 
as we examine the fiscal year 2012 budget request for the U.S. 
Forest Service (USFS).
    And joining us to present the administration's funding 
request is Tom Tidwell, the Chief of the USFS.
    Thank you very much for being here, Chief, and we look 
forward to hearing your testimony and having a productive 
question-and-answer period after the opening statements.
    Also joining us this afternoon is Kathleen Atkinson. She is 
the USFS Budget Director. Ms. Atkinson has the unenviable task 
of making sure no one tries to fudge any of the budget numbers 
as we make up our various points.
    We appreciate you being here with us very much.
    Chief, as you and I have discussed, the USFS does not play 
as prominent a role in my home State of Rhode Island as it does 
in the States of some of my colleagues. But your agency is 
important to every State in the United States, and particularly 
Rhode Island. We take opportunities through the research 
program. We also have access to, and benefit from, the State 
and Private Forestry program. The usefulness of the Forest 
Legacy Program (FLP) and Stewardship Programs in conservation 
and management of forests is also an integral part of Rhode 
Island and our region's efforts to maintain our forested lands.
    The funds that go through these accounts are also extremely 
critical in being able to leverage the Federal dollars with 
State, local, and private funds to preserve those lands.
    I'm also aware that our State has benefited from the 
programs funded through the research appropriation where we 
have received support in dealing with the Asian longhorned 
beetle, which is infesting our forests.
    So I look forward to your presentation this afternoon.
    And, just briefly, for fiscal year 2012, the administration 
is seeking a total of $4.9 billion for the USFS. That's an 
increase of $248 million, or 5 percent more than the equivalent 
2011 enacted level. However, the overall request includes $328 
million for payments under the Secure Rural Schools program, 
which has not been previously included as part of the USFS' 
discretionary budget. Without this funding, then the budget the 
administration has proposed is essentially flat.
    I'm particularly concerned with the large reductions in the 
research budget, the wildlands fire budget, and the maintenance 
budget. Together these three appropriations are proposed to be 
nearly $600 million below the current enacted levels. That's a 
20 percent cut. Even in these fiscally constrained times, I'm 
not sure cuts at that level are tenable, and so I think we need 
to be concerned with where we might find additional money to 
make up some of these shortfalls.
    Having said all this, I look forward to a more in-depth 
discussion. And first I'd like to recognize, before that 
discussion, our ranking member.
    Senator Murkowski.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman.
    Chief, Ms. Atkinson, welcome to the subcommittee. I do 
appreciate you being here.
    Chief, we had an opportunity not too many weeks ago in the 
Energy Committee to discuss your budget request. I look forward 
to continuing that discussion today.
    As Chairman Reed has stated, the fiscal year 2012 budget 
request for the USFS is $5.1 billion--essentially flat, 
compared to fiscal year 2011. But within the fiscal year 2012 
request you do have the $328 million for the Secure Rural 
Schools program. It's been funded in previous years on the 
mandatory side of the budget.
    I certainly understand the importance of Secure Rural 
Schools program and support it, but I'm also concerned that, 
with this restructuring, it's essentially going to compete 
against other important programs--whether it's timber 
harvesting, grazing, maintenance, and all this at a time when 
the fiscal environment is pretty tough.
    While a mandatory source of funding would avoid the Secure 
Rural School program from competing with your annual operating 
budget, as we struggle to deal with our deficits, it's unclear 
to me where we're going to find this offset. How to fund this 
program is a dilemma that we should resolve in the context, I 
think, of our larger budget discussions.
    Another key aspect of the budget is the proposal to 
establish a new integrated resource restoration (IRR), the IRR 
line item. This is essentially a big bucket of $854 million 
created by consolidating several current budget lines for long-
standing programs--whether it be timber, forest planning, even 
portions of the hazardous fuel reduction program. This big 
bucket approach appears to reflect an attitude from the agency 
that, essentially we've got to trust you on this with a very 
large pot of new money, with apparently few strings that are 
attached.
    And I do have to tell you, Chief, that the trust for the 
USFS is, perhaps, in short supply with some of the colleagues--
certainly some of my constituents, the general public there. My 
staff has met with folks from all over the ideological 
spectrum--whether it's the environmental community, the timber 
industry--and they've talked about this IRR proposal. There are 
concerns. And I think we've had an opportunity to raise them.
    But, for instance, the timber program--extraordinarily 
important for the economy of southeast Alaska. And the funding 
for it would be buried within the IRR line item, and the agency 
could then see fit to put as little or as much toward timber 
funding--or timber sales as--as they wanted.
    It's important for me, and I think, the public, to know 
that you're spending each year on the timber program--we need 
to know what that amount is. And any other programs that are 
then consolidated within the IRR line item. I think that's a 
decision that, quite honestly, we here in the Congress should 
be making--not something that is just left to the agency's 
discretion, with a mix of other choices.
    And then, finally, since we last discussed before the 
Energy Committee, there's been some news--most notably, the 
Roadless Rule and its application within the Tongass. I'm very 
concerned about this recent ruling and the proposed settlement 
that the USFS has entered into regarding the litigation.
    The settlement language provides some protection for a few 
very specific hydroelectric projects, but it does nothing for 
dozens of other hydro projects that are currently under 
consideration at the Federal Energy Regulatory Commission 
(FERC), or hundreds of potential hydro sites in the region that 
could be developed in the future. It also doesn't provide for 
the roads that are necessary to build the transmission lines to 
connect these power sources to the local communities.
    And what this court decision means for the timber industry 
is really very, very troubling for us. You know that the timber 
industry in our State is hanging by a thread. In 1990, there 
were 3,500 direct sawmill and logging jobs in southeast Alaska. 
In 2009, we're down to 214 sawmill and logging jobs remaining.
    It's pretty incredible to think that the Nation's largest 
national forest--an area the size of the State of West 
Virginia, 17 million acres--we only have one large sawmill 
operating. And that's our situation in the Tongass. And I'm 
very concerned that if the Roadless Rule is now made applicable 
to the forest, there's simply not enough economically viable 
second growth timber in roaded areas for the industry to 
survive.
    Moreover, the forest plan that took more than 10 years and 
millions of dollars to complete may have to now be rewritten, 
creating even more uncertainty into the future.
    I do hope to hear from you today some concrete actions that 
USFS plans to take in response to the litigation, in order to 
protect the remaining industry left in southeast Alaska, as 
well as the broader economy of the region.
    Again, I thank you for your service, Chief, and I look 
forward to the opportunity for some questions and answers.
    Senator Reed. Thank you, Senator Murkowski.
    Do any of my other colleagues wish to make some opening 
remarks?
    Senator Tester. Mr. Chairman.
    Senator Reed. Let me recognize Senator Cochran, then 
Senator Tester.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I am pleased to join you and 
the other members of this subcommittee in welcoming our 
witnesses from the USFS.
    I do have a prepared statement which I will ask be made a 
part of the record.
    Senator Reed. Without objection.
    Senator Cochran. I appreciate the good work done by the 
USFS, not only in managing the Federal forest lands in our 
State, but the national impact that the work you do makes on 
our economy, and our recreational resources. And we know that 
that doesn't just happen by letting nature run everything.

                           PREPARED STATEMENT

    There are some active programs that you have, that have 
been tried and proven to be very valuable to enhance the 
recreational opportunities and economic activities, at the same 
time that we can enjoy the beautiful scenery and the streams 
and rivers that make up our forest inventory. So, we're looking 
for ways to be sure that we allocate funds for those purposes 
that are consistent with good judgment, and our need to show a 
little sense of economy, as well, in these tight budget times.
    So, thanks for being here and sharing your thoughts on 
those subjects with us.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, thank you for convening this hearing to review the 
budget request for the U.S. Forest Service (USFS) for fiscal year 2012. 
I am pleased to join you and the other members of our subcommittee in 
welcoming you and working with you to identify your priorities and 
suggestions for funding within the limitations of our allocations.
    We appreciate the efforts of the USFS for your efforts in ensuring 
that our Federal forest lands are well-managed. The six national 
forests in Mississippi provide a great deal of outdoor recreation and 
economic activity in my State, which would not be possible without your 
valued service and commitment.
    The many beneficial functions of the USFS go well beyond providing 
quality recreational opportunities. In 1996, the USFS research units in 
Mississippi, including the Southern Hardwoods Lab in Stoneville, the 
Forest Hydrology Lab in Oxford, and the Seed Biology Lab in Starkville, 
merged to function as a research center with a common mission focus. 
This collaborative effort is now called the Center for Bottomland 
Hardwoods Research and is headquartered in Stoneville, Mississippi.
    The research that these units conduct is vitally important to both 
my State and the Nation. In addition, the dedicated work that these 
researchers have provided has positively impacted national and State 
forests, as well as privately owned forest land, with environmental and 
economic benefits. In 2010, the forestry industry produced more than $1 
billion in revenue in Mississippi alone.
    As we move forward with the fiscal year 2012 appropriations 
process, I hope that the USFS will continue to focus its resources on 
the important work that the Center for Bottomland Hardwoods Research is 
doing.
    I look forward to your testimony and to working with you during the 
coming year.

    Senator Reed. Thank you.
    Senator Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. Yes. Thank you, Chairman Reed, Ranking 
Member Murkowski, for holding this hearing.
    Chief Tidwell, always good to have you here.
    And Kathleen, thanks for being here also.
    I don't need to tell you. You're intimately familiar with 
the forests in Montana--some 20 million, almost 20 million 
acres worth, the impacts by beetles. You have a tough job 
because, as we talk about deficit and debt, and you come 
forward with a budget with some cuts, we all feel passionate 
about certain line items that we don't want cut. And we can't 
have it both ways.
    That being said, in your statement, at some point in time--
and we can bore down on this during my questions--there are 
some funds that are being reduced. And I can accept that if I 
know what the short-term versus the long-term impacts are.
    Let me give you an example. Forest and rangeland research--
you, there's a reduction in that. Is that going to cause us to 
spend more money long-term if we save this money short-term?
    And, Kathleen, you can answer these questions too if you 
feel important.
    And the same thing with wildland fire management. Are we 
cutting a fund when, in fact, it could save us money if we 
utilize that money before we get to a crisis situation?
    And that's all.
    You've got--I admire the work you do. You know, I've got a 
bunch of issues, and you've been very helpful on them. And I 
look forward to working with you in the future.
    Mr. Tidwell. Thank you, Mr. Chairman.
    Senator Reed. All of the statements will be made part of 
the record, including yours, Chief. So, if you would like to 
summarize, that would be perfectly fine.
    And let me recognize you for your opening statement. Thank 
you, Chief.

                    SUMMARY STATEMENT OF TOM TIDWELL

    Mr. Tidwell. Thank you.
    Mr. Chairman, and members of the subcommittee, once again, 
it's a privilege to be here today to discuss the President's 
2012 budget request for the USFS. I appreciate the support the 
subcommittee has shown the USFS in the past, and I look forward 
to working with you to provide more of the things that the 
American public need and want from our Nation's forests and 
grasslands.
    I also want to thank you for your support with the 2011 
budget. I know how difficult that was, and we do really 
appreciate the support that you showed us.
    For 2012, the President's budget is designed to support the 
administration's priorities for maintaining and restoring the 
resiliency of America's forests. Additionally, this budget 
request reflects our commitment to fiscal restraint with 
significant reductions to ensure that we're spending 
efficiently and focusing on the priorities of the American 
public.
    The budget supports these priorities through four key 
objectives. The first is to restore and sustain our forest and 
grasslands by increasing the collaborative efforts to build 
support for restoration activities that create jobs.
    The budget requests full funding for the Collaborative 
Forest Landscape Restoration Fund (CFLR). It increases the 
emphasis on protecting and enhancing watershed health with a 
request for a new Priority Watershed and Job Stabilization 
initiative to fund large-scale projects.
    It proposes a revised IRR budget line item to align the 
budget structure with the work we're doing on the ground. This 
will help facilitate a more integrated approach to developing 
project proposals that will result in more work being done and 
more jobs being created.
    We will continue to track the traditional targets, such as 
board feet and the miles of stream improved, but we will also 
track the overall outcomes of restoration and watershed 
improvement so that we can show you that we are making a 
difference at a landscape scale. We will continue to 
incorporate strategies developed by USFS Research and 
Development to determine how our management needs to address 
the effects of climate changes, to be able to increase the 
ecosystems' resistance to the increasing frequency of 
disturbances like fire, insect and disease outbreaks, 
invasives, flood, and drought.
    The second objective is to provide funding for wildland 
fire suppression that includes a level of preparedness to 
continue our success to suppress 98 percent of the wildland 
fires during initial attack. It also proposes a realignment of 
preparedness and suppression funds that more accurately display 
the costs. It provides for the FLAME Fund to increase 
accountability and transparency of the costs of large fires, 
and to further reduce the threat of wildfire to homes and 
communities by doing more hazardous fuels work in the wildland-
urban interface (WUI).
    The third objective is that we will increase support for 
our community-based conservation with the America's Great 
Outdoors (AGO) initiative, by helping Americans reconnect with 
the outdoors by increasing conservation, education, and 
volunteer opportunities through our youth programs. We want to 
build on the success of our 28 Job Corps Centers by supporting 
the creation of a 21st Century Conservation Service Corps 
program to build skills and work together with the States to 
provide work experiences for more of our youth. We want to 
continue to work with the States using our State and Private 
Forestry programs to promote conservation and help keep private 
forests forested.
    We are requesting an increase in the Land and Water 
Conservation Fund (LWCF) and our FLP to use conservation 
easements and land acquisitions to protect critical forests and 
acquire public access, while we reduce our overall 
administrative costs.
    The fourth objective is to further support economic 
opportunities in rural communities by supporting the 
recreational opportunities that not only add to the quality of 
our lives, but support these communities through more than $13 
billion in annual spending by recreation visitors.
    We want to encourage biomass utilization and other 
renewable energy opportunities, and explore ways to process oil 
and gas permit applications and energy transmission proposals 
more efficiently.
    We're also proposing a framework for a 5-year 
reauthorization of the Secure Rural Schools Act, with $328 
million in our budget request to fund the first year. We want 
to work with the Congress and this subcommittee to consider 
options for mandatory funding and to develop the legislative 
proposal.

                           PREPARED STATEMENT

    Our goal is to increase collaborative efforts, to encourage 
greater public involvement and management of our national 
forests and grasslands. We want to maintain and restore healthy 
landscapes. To do this, we need to take care of the ecosystem, 
but we also need to support healthy, thriving communities and 
provide jobs in rural areas.
    Again, I want to thank you for the opportunity to address 
the subcommittee, and I look forward to answering your 
questions.
    [The statement follows:]

                 Prepared Statement of the Tom Tidwell

    Mr. Chairman and members of the subcommittee, it is a privilege to 
be here today to discuss the President's budget request for the Forest 
Service (USFS) in fiscal year 2012. I appreciate the support this 
subcommittee has shown the USFS in the past, and I look forward to 
working together in the future to ensure that stewardship of our 
Nation's forests and grasslands continues to meet the desires and 
expectations of the American people. I am confident that this budget 
will allow the USFS to support this goal, while also reflecting our 
commitment to fiscal restraint and ensuring we are spending 
efficiently.
    As the Secretary testified on March 10, 2011 in front of the 
Agriculture, Rural Development, Food and Drug Administration, and 
Related Agencies Subcommittee, we need to take some serious steps to 
reduce the deficit and reform Government so that it's leaner and 
smarter for the 21st century. The fiscal year 2012 budget the 
Department of Agriculture (USDA) is proposing reflects the difficult 
choices we need to make to reduce the deficit while supporting targeted 
investments that are critical to long-term economic growth and job 
creation. To afford the strategic investments we need to grow the 
economy in the long term while also tackling the deficit, this budget 
makes difficult cuts to programs the administration cares about. It 
also reflects savings from a number of efficiency improvements and 
other actions to streamline and reduce our administrative costs. It 
looks to properly manage deficit reduction while preserving the values 
that matter to Americans.
    A healthy and prosperous America relies on healthy forests and 
grasslands and the benefits they provide:
  --clean air and water;
  --carbon storage;
  --renewable energy;
  --food and fiber;
  --fertile soils;
  --wildlife habitat; and
  --recreation opportunities.
    The USFS delivers incredible value to the public by protecting and 
enhancing these benefits through forest health restoration, research, 
and financial and technical assistance to partners. Our national 
forests and grasslands help to sustain 224,000 jobs in rural areas and 
contribute an estimated $14 billion to the gross domestic product each 
year through visitor spending alone.\1\ In addition to managing 193 
million acres on 155 national forests and 20 grasslands in 44 States 
and Puerto Rico, the USFS helps improve stewardship of lands outside 
the National Forest System (NFS). The agency partners with and provides 
technical assistance to other Federal agencies as well as tribal, 
State, and local governments; private landowners; and nonprofit 
organizations for the betterment of the Nation's forests and 
grasslands. Furthermore, the agency is a leader in cutting-edge 
research on climate change, bioenergy, wildfire management, forest 
pests and diseases, ecological restoration, and other conservation 
issues. The agency works to efficiently maximize limited resources and 
create a high return on investment for the American taxpayer.
---------------------------------------------------------------------------
    \1\ USDA Forest Service. National Visitor Use Monitoring Results. 
http://www.fs.fed.us/recreation/programs/nvum/.
---------------------------------------------------------------------------
    The fiscal year 2012 President's budget request for the USFS totals 
$5.1 billion in discretionary appropriations, a $178 million decrease 
from the annualized fiscal year 2011 continuing resolution as shown in 
the published fiscal year 2012 budget justification. This decrease is 
achieved through several program re-combinations that streamline 
operations and increase efficiency and through major reductions in 
programs, including roads, facilities, and national fire plan programs 
and associated State and Private Forestry programs. In addition, the 
fiscal year 2012 budget includes $44 million in targeted cost-saving 
measures for the USFS through reduced travel and improved acquisition 
management procedures. These actions will allow us to focus limited 
resources on programs where we can achieve the greatest impact and that 
are of highest priority to the American people. Our budget priorities 
respond to the public's desire to make smart Federal investments that 
will allow us to pass on to future generations the beauty, wildlife, 
water, and natural resources that we have today.
    The fiscal year 2012 budget for the USFS supports President Obama's 
America's Great Outdoors (AGO) initiative, the goals of the USDA's 
strategic plan, and Secretary Vilsack's ``all-lands vision''. It aims 
to maintain and enhance the resilience and productivity of America's 
forests through four funding priorities:
  --enhancing water resources;
  --responding to climate change;
  --community-based stewardship; and
  --jobs in rural communities.
    Climate change, severe wildfires, disease, and pests have all 
contributed to declining forest health. With the current forest health 
crisis threatening the future of our forests, ecological restoration 
\2\ is a key component to our fiscal year 2012 strategy. We need to 
ensure that our forests are resilient in the face of future 
uncertainties. To most effectively address this forest health issue, we 
must work across landscapes and ecosystems, as well as across ownership 
boundaries. The USFS is plotting a course to build a forest restoration 
economy that would create jobs in rural areas, more actively involve 
local communities in caring for their land, and improve access to 
natural areas. Ensuring the sustainability of rural communities and 
increasing community collaboration in natural resources management are 
critical to the success of restoration efforts and the continued 
provision of goods and services from forest ecosystems. Finally, using 
forest biomass byproducts from ecological restoration activities as a 
source of renewable energy can help enhance U.S. energy security, 
economic opportunity, environmental quality, and global 
competitiveness. In fiscal year 2012 we aim to strengthen biomass 
utilization efforts through our work with other agencies and our 
programs that encourage market development for woody biomass.
---------------------------------------------------------------------------
    \2\  By restoration, we mean the process of assisting the recovery 
of resilience and the capacity of a system to adapt to change if the 
environment where the system exists has been degraded, damaged, or 
destroyed. Ecological restoration focuses on re-establishing ecosystem 
functions by modifying or managing the composition, structural 
arrangement, and processes necessary to make a terrestrial and aquatic 
ecosystem sustainable and resilient under current and future 
conditions.
---------------------------------------------------------------------------
    Our four key funding priorities highlight how we as an agency are 
continually working to ensure that we are responding to the needs of 
the American public.

                       ENHANCING WATER RESOURCES

    One of the most important services that the American people receive 
from forested landscapes is the provision of clean and abundant 
drinking water. An adequate supply of clean water is integral to the 
health and prosperity of the United States. More than one-half of the 
Nation's freshwater supply originates on public and private forest 
lands, and is the source of drinking water for more than 200 million 
people. The NFS alone provides fresh water to approximately 66 million 
people, or 1 in 5 Americans. In addition, healthy rivers, lakes, and 
streams are crucial to sustaining aquatic life, supporting terrestrial 
ecosystems, and providing high-quality recreation opportunities. 
Maintaining an adequate supply of clean water will be one of the 
biggest challenges of the 21st century as our forests and communities 
continue to deal with climate change, severe wildfires, invasive pests, 
severe storm events, and development pressures.
    In order to maximize USDA's investments, USFS in collaboration with 
the Natural Resources Conservation Service and Farm Services Agency has 
been working to identify and implement high-impact targeted practices 
that are expected to have the greatest impact on protecting water 
resources. The agencies expect to treat more than 6 million acres in 
priority landscapes by the end of fiscal year 2011. These priority 
areas include targeted acreage on national forests and private working 
lands in the Chesapeake Bay Basin, Great Lakes, Mississippi River 
Basin/Gulf of Mexico, and California Bay Delta/Sierras. The agencies 
are working toward developing more meaningful performance measures as 
part of this effort.
    The Integrated Resource Restoration (IRR) budget line item, first 
proposed in the fiscal year 2011 budget request, will allow us to 
effectively integrate interdisciplinary restoration treatments that 
will protect and improve our water resources. The fiscal year 2011 
budget request proposed to combine the forest products, vegetation and 
watershed management, and wildlife and fisheries management budget line 
items and the CFLR program from previous years. In addition to these 
programs, legacy roads and trails, road decommissioning, and postfire 
rehabilitation and restoration have also been added to the IRR for the 
fiscal year 2012 request. Moreover, the portion of hazardous fuels 
management funding work outside the wildland-urban interface (WUI) has 
also been added to IRR for the fiscal year 2012 request as the agency 
works toward restoring historic fire regimes on the non-WUI portion of 
the NFS lands. Restoration projects require the integration of various 
stewardship activities. Thus, combining these programs will allow us to 
use resources more efficiently and will also create the vehicle that 
will allow the USFS to move toward restoring watersheds as a top 
priority. A new watershed condition framework will be used to evaluate 
improvements in watershed health using a national standard and provide 
clear accountability for the IRR program area. Specifically, we are 
proposing an $80 million Priority Watershed and Job Stabilization 
initiative that will use the watershed condition framework, state 
forest assessments, project costs, and input from local communities to 
prioritize projects to fund to make progress toward improving watershed 
condition class. Proposed projects will be developed by USFS and will 
come from the action plans created for the priority watersheds 
identified as part of the watershed condition framework. We will also 
continue to use some of our established targeted measures, as well as 
continue to track outcomes related to past measures. fiscal year 2012 
restoration projects will maintain and improve water quality and 
watershed function, improve fish and wildlife habitat, and integrate 
forest products production into stewardship and watershed restoration 
activities.

                      RESPONDING TO CLIMATE CHANGE

    Climate change is occurring at an increasing rate and jeopardizes 
the benefits that the public receives from America's forests and 
grasslands, including clean air and water, forest products, and 
recreational opportunities. Many of the management challenges that we 
have faced over the past decades have been exacerbated by climate 
change, including catastrophic wildfires, changing water regimes, 
insect infestations, and disease. In fiscal year 2012, USFS will 
continue to focus on incorporating climate change adaptation into 
multiple program areas, which includes making ecosystems more resistant 
to climate-related stressors, increasing ecosystem resilience to 
disturbance driven by climate change, and facilitating landscape-scale 
ecological transitions in response to changing environmental 
conditions. This priority is again tightly tied to restoration and our 
IRR budget line item. Restoring key functions and processes 
characteristic of healthy, resilient ecosystems allows them to 
withstand future stressors and uncertainties. Examples of IRR projects 
include decommissioning roads to reduce the risk of erosion from severe 
storms, reducing fuels outside the WUI to reduce the risk that severe 
wildfire will damage resources near important watersheds or critical 
habitat, and reforestation to stabilize critical watersheds and soils 
impacted by natural events and to increase long-term carbon 
sequestration capacity.
    USFS has developed a roadmap for responding to climate change in 
order to guide the agency in achieving its climate change goals. The 
Roadmap focuses on three kinds of activities:
  --assessing current risks, vulnerabilities, policies, and gaps in 
        knowledge;
  --engaging internal and external partners in seeking solutions; and
  --managing for resilience, in ecosystems as well as in human 
        communities.
    The agency has implemented a scorecard to measure progress made by 
each national forest and grassland. The scorecard assesses agency 
capacity, partnerships and education, adaptation, mitigation, and 
sustainable consumption.
    Our commitment to responding to climate change is underscored in 
the proposed planning rule, published for comment in the Federal 
Register on February 14, 2011. USFS will begin to operate under the 
proposed planning rule in fiscal year 2012 after it is finalized, 
emphasizing citizen collaboration and an all-lands approach to 
management planning, ecosystem restoration, and climate change 
mitigation. A new budget line item, land management planning, 
assessment and monitoring, has been proposed for fiscal year 2012. 
Combining the previous line items land management planning and 
inventory and monitoring highlights the clear tie between gathering 
information through monitoring and making management planning 
decisions. This combination better aligns program funding with the 
objectives of the proposed planning rule, ensuring that planning, 
monitoring, and conducting assessments are coordinated more efficiently 
across the landscape.
    Our climate change research program will continue to help clarify 
how climate change is expected to affect our ecosystems and the 
services they provide and to inform decisionmakers as they evaluate 
policy options. With two decades of climate change research, the USFS 
is the authority on how forest and range management can be modified to 
address the challenges of global change.

                      COMMUNITY-BASED STEWARDSHIP

    Working with local communities is critical to the success of 
restoration efforts and increasing ecosystem resilience across the 
landscape. Increasing collaboration with stakeholders can move 
conservation efforts from a scale of thousands of acres to hundreds of 
thousands of acres. Most importantly, working together with 
stakeholders from project planning to implementation helps build 
citizen support for ecosystem restoration projects. The importance of 
getting citizens and communities more connected and involved with the 
outdoors has been emphasized in AGO. AGO seeks to empower citizens, 
community groups, and local, State and tribal governments to share in 
the stewardship responsibility for protecting, improving, and accessing 
natural areas and their resources, with the end result of a healthy, 
vibrant outdoor legacy for generations to come. The agency is committed 
to achieving greater community-based stewardship in pursuit of 
resilient forests as outlined in the AGO report. The fiscal year 2012 
budget strategically allocates resources to support exemplary local 
stewardship models and to catalyze new partnerships and innovations. 
USFS will work toward the goals of AGO through multiple program areas.
    Building on the sentiments of the American people, the AGO 
initiative seeks to maximize use of the Land and Water Conservation 
Fund (LWCF), which directs a portion of revenue from offshore oil and 
gas leases to conservation projects. LWCF funds USFS's forest legacy 
and land acquisition programs and provides local communities the 
opportunity to cost-share the conservation of priority forest land. The 
fiscal year 2012 budget request funds LWCF at the fully authorized 
amount, which constitutes an increase of $59 million for the Forest 
Legacy Program (FLP) and an increase of $26 million for the Land 
Acquisition Program from the fiscal year 2011 annualized continuing 
resolution. The FLP works with States, private landowners, and other 
conservation partners to protect environmentally critical forests 
threatened by land conversion through conservation easements. Project 
funding is based on a nationally competitive process. To date, the FLP 
has leveraged more than $630 million in non-Federal matching funds to 
conserve more than 2 million acres of non-Federal forest land. In 
fiscal year 2012, 48 projects have been proposed for funding in 38 
States. FLP projects keep working forests working, which keeps jobs in 
rural areas. FLP projects also provide public access to recreation in 
many areas. Land acquisition supports a similar function. Its primary 
focus is on land acquisitions and donations on land adjacent to 
national forests, which typically help fill in holes and consolidate 
land ownership, making management easier and more cost-effective. In 
fiscal year 2012, 38 nationally prioritized lands have been proposed 
for funding. Recreation on national forest lands results in a boost to 
local economies and the creation of jobs. This budget request includes 
an increase of $5.4 million for recreation in support of AGO.
    Protecting land that borders NFS lands and acquiring inholdings 
abates the impacts of development. For more than a century, the 
American people have invested in protecting forests and grasslands 
across the United States to maintain and improve water quality, reduce 
wildfire risk, create recreational opportunities and enhance fish and 
wildlife habitat. By fully funding the LWCF, our budget will continue 
our historic investments, limiting forest fragmentation, which can be 
detrimental to these benefits that we have worked so hard to maintain 
and enhance. In addition to the LWCF, we also have other tools to 
increase our management efficiency and become better neighbors with our 
adjacent landowners and will use these as well. I would like to also 
draw the subcommittee's attention to the pilot land exchange program 
proposed in the landownership management budget line item, which will 
accentuate the benefits of consolidated land tenure on one of our 
national grasslands.
    In fiscal year 2012, USFS will commence implementation of the 2008 
farm bill's Community Forest and Open Space Conservation program. This 
program provides eligible tribal governments, local governments, and 
qualified nonprofit organizations cost-share grants for creating 
community forests through fee-simple acquisition. This budget request 
includes an increase of $4.5 million for the Community Forest and Open 
Space program. These forests will be able to provide public access and 
recreational opportunities, as well as protection of vital water 
supplies and wildlife habitat, demonstration sites for private forest 
landowners, and financial and community benefits from sustainable 
management.
    USFS will continue to expand community engagement in restoration 
efforts on NFS land through the CFLR. Under the IRR budget line item, 
the CFLR will provide for the continued implementation of the 10 long-
term projects selected in fiscal year 2010 and will provide for the 
selection of additional long-term projects. The CFLR projects are 
proposed through multi-stakeholder collaborative planning at a local 
level, and priorities are suggested by a Federal Advisory Committee. In 
2010, the CFLR funded 10 community restoration projects in Idaho, 
California, Colorado, Arizona, New Mexico, Montana, Washington, Oregon, 
and Florida.
    Conservation education and volunteer opportunities will be a 
priority for the USFS as we implement AGO recommendations. We already 
have a variety of programs that have successfully connected youth to 
the outdoors, and we will continue to find opportunities for engaging 
youth in conservation efforts in fiscal year 2012. The Lake Tahoe 
Generation Green program works with local community groups to engage 
at-risk high-school students in outdoor leadership and forest 
management activities. The Kids in the Woods program at the Apache-
Sitgreaves National Forest is another example of a successful locally 
based outdoor education program that has taught more than 5,000 
participants about a wide range of topics, including invasive species, 
water conservation, and responsible off-road vehicle use. The Chugach 
Children's Forest in Alaska connects village, rural and inner-city 
youth with a nearby national forest, while motivating local district 
rangers to work alongside community officials and school 
superintendents, integrating community youth challenges with outdoor 
solutions. Volunteer opportunities will also expand across the USFS, 
including wilderness stewardship, trail clearing, restoration of 
historic structures, and campground host duties.
    Finally, the proposed planning rule establishes a framework that 
emphasizes a collaborative approach to land management planning, 
assessment, and monitoring. The USFS will work with the public, tribes 
and other partners to develop, revise, and amend land management plans, 
conduct assessments and develop and implement monitoring programs. 
Collaborative approaches build citizen support in identifying needs, 
establishing desired conditions, crafting alternatives for future 
management, and identifying information and monitoring needs.
    These are but a few examples of initiatives in the budget that 
exemplify the importance of community-based stewardship.

                       JOBS IN RURAL COMMUNITIES

    In August 2009, in Seattle, Washington, Secretary Vilsack spoke of 
the need for a ``shared vision'' that not only focuses on forest 
conservation, but also on supporting a forest economy that creates jobs 
and vibrant rural communities. The USFS is not only committed to 
providing benefits to the American people in the form of clean air and 
water, fish and wildlife habitat, timber, and recreation opportunities, 
but also in the form of jobs and sustainable rural communities.
    Forests and grasslands are an important source of employment and 
rural development. More than 2.5 million Americans have forest-related 
jobs in fields ranging from ecological restoration to outdoor 
recreation services to the forest products industry.\3\ The USFS 
provides service contracts for many types of activities including tree 
planting, timber harvesting, noxious weed control, culvert replacement, 
and road reconstruction. Recreation on national forest lands also 
bolsters local economies and creates jobs. We need to build a forest 
restoration economy, an economy built on the Secretary's forest 
restoration vision that inspires and brings together support for people 
playing, recreating and working in the woods.
---------------------------------------------------------------------------
    \3\ USDA, Forest Service. 2010. Draft National Report on 
Sustainable Forests. http://www.fs.fed.us/research/sustain/.
---------------------------------------------------------------------------
    Over the past year the USFS has worked to create and retain jobs in 
rural communities through the American Recovery and Reinvestment Act of 
2009 (ARRA). USFS received funding for two programs. Capital 
improvement and maintenance received funds to restore infrastructure 
that supports public, administrative and recreation uses, while 
minimizing impacts to ecosystem stability and conditions. In addition, 
wildland fire management received funds to protect communities from 
large fires and to contribute to the restoration of fire-adapted 
landscapes. Final completion of all ARRA projects is expected to occur 
in the next 2 fiscal years. However, the agency will continue to have a 
jobs focus. Job creation and rural development will be a priority in 
fiscal year 2012.
    One of the highlights of the IRR budget line item is creating job 
opportunities in rural areas. Creating job opportunities through 
landscape-scale restoration projects is a key component of the Priority 
Watersheds and Job Stabilization initiative under the IRR. Stewardship 
contracts and agreements will be a significant method for carrying out 
restoration efforts, and attention will be given to new and emerging 
markets for the wood removed during restoration activities, as well as 
the traditional uses for these products. Building a forest restoration 
economy will create new jobs in rural communities and help diversify 
the forest products industry to support the sustainability of local 
communities and the forest contractor infrastructure needed to perform 
restoration work. Also, we are working to further build a forest 
restoration economy around wood utilization by targeting grants to 
assist small businesses. Since 2005, the Woody Biomass Utilization 
Grant program has awarded a total of $30.6 million to 123 grant 
recipients in 21 States, including small businesses, nonprofit 
organizations, tribes, and State agencies, to further innovations in 
the wood products sector that lend to job creation.
    USFS has also invested in job creation for youth through Job Corps, 
a partnership with the Department of Labor. This program helps people 
ages 16 through 24 improve the quality of their lives through technical 
and academic career training. With Department of Labor funding, we 
operate 28 Job Corps Civilian Conservation Centers across the country 
that provide approximately 6,200 students per year with the skills they 
need to become employable and independent so that they can find 
meaningful jobs or further education. In March 2010, Secretary Vilsack 
unveiled a green Job Corps curriculum that will help train underserved 
youth for jobs in the emerging green economy using national forests and 
grasslands as training sites for solar, wind, and biomass energy 
demonstrations.
    AGO hopes to build on the success of programs like Job Corps by 
creating a 21st Century Conservation Service Corps program that will 
remove barriers to employment and improve career pathways to jobs in 
natural resource conservation. This includes use of the Public Lands 
Corps Healthy Forests Restoration Act of 2005, which expanded youth 
service opportunities while addressing important conservation and 
societal objectives. USFS has a long-standing commitment to recruiting 
employees that contribute to workforce diversity; providing 
opportunities for disadvantaged youth to pursue natural resource 
careers; and creating the next generation of land conservationists. 
USFS will expand on AGO Goal A (to develop conservation jobs and 
service opportunities that protect and restore America's natural 
resources) through the Youth Conservation Corps. This summer employment 
program aims to accomplish needed conservation work on public lands, 
provides gainful employment for 15- through 18-year olds from diverse 
backgrounds, and develops in them an understanding and appreciation of 
the Nation's natural environment and heritage.
    To continue supporting the communities that we work in, the fiscal 
year 2012 President's budget proposes a 5-year reauthorization of the 
Secure Rural Schools Act, named Payments to Communities, and includes 
$328 million of discretionary funding for fiscal year 2012. This act 
provides annual payments to counties for schools and roads, forest 
restoration/protection, and fire assistance. The proposal modifies the 
existing framework to emphasize enhancing forest ecosystems, improving 
land health and water quality, and increasing economic development 
activities. The administration is open to working with the Congress to 
fund either through discretionary or mandatory appropriations.

                        WILDLAND FIRE MANAGEMENT

    The fiscal year 2012 budget request continues to reflect the 
President's commitment to responsibly budget for wildfires, ensuring 
fire management resources are used in a cost-effective manner in high-
priority areas. The 10-year average of suppression costs is fully 
funded, and the allocations between preparedness and suppression funds 
have been adjusted to ensure that readiness needs are fully funded for 
this fiscal year. The budget request includes a two-tier system for 
fire suppression. The suppression account will be the primary source of 
funding for responding to wildfires, covering the costs of initial and 
smaller extended attack operations. The Federal Land Assistance, 
Management and Enhancement Act reserve account will provide better 
accounting of funds to cover fires escaping initial attack that are 
large and complex, as it did last year. This system ensures that funds 
are available to fight fires without diverting funds from other 
critical USFS programs and activities.

                               CONCLUSION

    This President's budget request for fiscal year 2012 takes a 
comprehensive, all-lands approach to conservation that addresses the 
challenges that our forests and grassland currently face, while also 
taking into consideration the need to reduce spending and to find the 
most efficient way to do our work.
    The future of our country's forests and the valuable ecosystem 
services they provide depend on our ability to manage for an uncertain 
climate and uncertain economic market. This means landscape-level 
restoration, working across ownership boundaries, relying upon a 
foundation of strong science to guide decisions, and collaborating with 
tribal, State, local, private, and other Federal stakeholders to 
achieve common goals. A comprehensive approach to restoring unhealthy 
ecosystems will help make our forests more resilient to stressors and 
disturbances related to climate change and protect our vital water 
resources. At the same time, we can significantly contribute to 
economic recovery and job support by building a forest restoration 
economy. Greater involvement of citizens and communities is key to 
successfully implementing restoration efforts at large geographic 
scales. Our vision in creating healthy landscapes not only includes 
creating healthy ecosystems, but also creating healthy, thriving 
communities around our Nation's forests and grasslands and providing 
jobs in rural areas. The fiscal year 2012 budget request highlights 
these priorities.
    I look forward to sharing more with you about our fiscal year 2012 
priorities and working with you in shaping the proposals laid out in 
this budget. Thank you for your time and attention, and I look forward 
to answering any questions you may have.

                        WILDLAND FIRE MANAGEMENT

    Senator Reed. Thank you very much, Chief.
    I presume that Ms. Atkinson does not have a statement. 
Thank you, Kathleen.
    Chief, let me begin with the fire budget. In the 
President's budget, there is an error. I understand it is a 
clerical error that makes your wildlife fire management request 
$192 million less than it should be.
    As you know, the subcommittee's allocation will be based on 
the President's budget, and it puts us at a disadvantage to 
have an inaccurate request. Can you tell us when we can expect 
to receive a budget amendment or errata sheet to correct this 
error?
    Mr. Tidwell. We've shared the subcommittee's concerns with 
the Office of Management and Budget, and I will also visit with 
them again so we can get that errata sheet up to you very 
shortly.

                            10-YEAR AVERAGE

    Senator Reed. Thank you very much, Chief. Let me continue 
in terms of fire suppression costs. Could you give us the 10-
year average that you're working with?
    Mr. Tidwell. For 2012, we're looking at a 10-year average 
of $1.17 billion. When we apply the rebaselining that you've 
been requesting us to do for a couple years, and make that 
shift between suppression to preparedness, the 10-year average 
will then drop to $855 million. But the difference is just the 
shift of some preparedness costs that we've been showing in our 
suppression costs for the last few years. At the request of 
this subcommittee, we feel it's actually more transparent to 
show those costs under preparedness.
    These are primarily our large aviation contracts that we 
have to pay up front at the start of the year no matter how 
much we use those aviation contracts throughout the year. We 
just believe that they actually should be shown under 
preparedness.
    Senator Reed. You're confident that the funds you've 
allocated to suppression will be adequate for the current fire 
season? The current budget season?
    Mr. Tidwell. Yes. Based on what we see and where we are 
today, and where we expect to be with 2012, we're confident 
that the funds that we're requesting will be adequate to handle 
a moderate-to-active fire season in 2012.

                       IRR--COMBINING LINE ITEMS

    Senator Reed. Okay. Let me turn now to the IRR program, 
which I'm sure will be the topic of several questions from my 
colleagues. For many years the USFS did perform integrated 
activities under very specific budget lines. I think you'd be 
the first to point back several years ago, how you were doing 
integrative things using funds from different accounts to 
achieve a comprehensive approach.
    So the question is why do we have to go to this integrated 
one fund? What is the roadblock that hampers a forest 
supervisor or regional forester from taking an integrated 
approach, even though they would have to, technically, spend 
from different accounts?
    Mr. Tidwell. Mr. Chairman, you're correct that we've been 
taking an integrated approach to our project design and 
planning for years. What we're finding as we do more and more 
of this--our current budget structure sometimes is a barrier to 
promote that integration. Based on the feedback we received 
from you last year, we've made some changes to the revised 
proposal, so that we will continue to track the traditional 
targets of board feet, miles of stream, et cetera. By having 
one fund, it will help facilitate not only a more integrated 
approach, but it will allow us to look at the landscape and 
determine what work needs to be done.
    Based on our experiences in the past when we had more 
flexibility with our budget, we found that we were able to get 
more work done. It makes it easier for not only our employees 
to design the work, but also for the public to be part of that 
process. It builds more support for the overall work, because 
we have a much wider range of objectives that we can accomplish 
with every project.
    The other key part of it is, there are times when you have 
an integrated project you want to go forward with, but one of 
the program areas--one of the fund codes--is lacking money on 
that unit that year. Sometimes in the past we've actually 
deferred very good projects from being able to go forward 
because we didn't have the right mix of money to be able to do 
that. That's just one of the key benefits.
    In these difficult economic times, I look for ways that we 
can improve our efficiency. I believe, by having this IRR line 
item, that we can be more efficient, and we will actually get 
more work done on the ground.

                        IRR--CHANGES TO PROPOSAL

    Senator Reed. Let me just follow up before I turn it over 
to Senator Murkowski.
    One of the improvements you've made, or, one of the more 
specific measures you've included is some commitment to the 
timber program in terms of the amount of board feet.
    Can you point to other specific changes that are in 
response to the criticism of my colleagues last year?
    Mr. Tidwell. There were a couple things based on the 
comments last year. First of all, we wanted to add some 
additional budget line items. We felt that it was important to 
put some hazardous fuels funding into this mix. We also feel 
that the Legacy Roads program is a very good fit, because so 
much of that work is done to improve the overall watershed 
health condition.
    In addition to those funds, the other thing that we've done 
is to ensure that we can track the outputs along with the 
overall outcomes. Not only will we track board feet, miles of 
stream improved, acres of invasives that have addressed overall 
watershed health and acres of wildlife habitat that have been 
improved, but also, the overall watershed condition class. 
We'll be able to track that through a new condition class 
assessment that we are now putting in place for the first time.
    We feel that the combination of both of these will allow us 
to demonstrate that we are carrying out the direction of the 
Congress, and at the same time--especially over several years--
it's my expectation that we'll be able to increase the number 
of outputs that we currently are doing with the same amount of 
money.
    Senator Reed. Thank you very much. Senator Murkowski----
    and I will anticipate a second round, because we want to 
make sure that everybody has a chance to ask all their 
questions.
    Senator Murkowski.

                TONGASS ROADLESS SETTLEMENT--HYDROPOWER

    Senator Murkowski. Thank you, Mr. Chairman.
    Chief, before I begin my questions, I was visited by the 
mayor and some of the community leaders of the community of 
Wrangell in southeastern Alaska. And when they heard that I was 
going to be in hearing with you today, they asked for some 
assistance as a community in sitting down with their regional 
forester there, talking about, just, a vision for that 
community.
    I think they've got some good news. And we always want to 
work to encourage the good news in some of our southeastern 
Alaska communities that have been struggling for some time. So, 
I would----
    Mr. Tidwell. Thank you.
    Senator Murkowski [continuing]. Put that on your ``to-do'' 
list, if I may. Thank you.
    I want to talk about, or ask you a couple of questions, 
about the Tongass roadless settlement and the proposal with 
respect to the USFS--what you have advanced with that 
directive. And this is as it specifically relates to 
hydropower, to mining, and to timber in the area.
    The agency's proposed judgment provides protection, as I 
mentioned in my opening, for a few hydroelectric sites. But 
there's about 27 other hydroelectric projects that are filed 
currently with FERC, that have not been included, and there are 
also about 150 other potential hydropower sites in roadless 
areas that, again, are not included.
    Can you give me some kind of understanding as to why you 
selected the ones that you did for the carve-out, and then left 
hanging 150, and then 27 that are actually filed with FERC? 
What's the rationale behind that?
    Mr. Tidwell. The ones that we included were the ones that 
we felt had the most potential to move forward in the near 
term. At the same time, in our proposed judgment, there isn't 
anything that would preclude those projects from being 
considered in the future.
    Senator Murkowski. Well, the one thing that would preclude 
them is if it's not possible to gain access to them. If, in 
fact, you've got to build a hydroelectric site, or allow for 
the transmission lines to be built, but only by using a 
helicopter, that does make the project prohibitive.
    Mr. Tidwell. One of the things with the 2001 Roadless Rule, 
because it's been in a state of flux for the last 10 years, is 
that we have never actually been able to move forward and to 
use the exemptions that are in the 2001 rule. You're correct 
that when it comes to building roads and timber harvesting, 
there are definitely restrictions on that.
    But there also are exemptions that allow us to put in 
transmission corridors to be able to construct these 
hydroelectric plants. Each one of them would have to be looked 
at. It's on its own merits. We would require probably more 
helicopter access, especially with the transmission corridors, 
et cetera.
    The projects that we put forward--we felt these were the 
ones that had the best potential. With this proposed judgment 
we wanted to be able to get things going forward so that we can 
start to provide more reasonable energy there in southeastern 
Alaska. I was in the process of negotiating with the plaintiffs 
on this. We felt by going with this list, this gave us the best 
chance to be able to reach an agreement so that these projects 
can move forward right away.
    Senator Murkowski. Well, and those that are looking to 
build those projects are glad that they're not caught in this 
real incredible trap. Because to suggest that you can build a 
hydro project, to suggest that you can build a mine, or develop 
other mineral deposits, but you can't build a road to get 
there--you will have to helicopter in everything that you're 
going to need for this--it just defies logic.
    The agreement mentions the potential exploration and 
expansion of Greens Creek Mine, the exploration of Bokan 
Mountain and of Niblack Mine; but, again, there are some other, 
about 14 other mineral deposits that are not included.
    Excuse me.
    And so, I, I'm just at a loss as, to try to understand how 
you have determined that this small subsection shall move 
forward, when we have equal opportunities in some other areas 
that now have, for all intents and purposes, been put off 
limits.

               TONGASS ROADLESS SETTLEMENT--TIMBER SALES

    The other question that I would have would be with regards 
to the timber sales that have already--the USFS has already 
spent the money to perform the National Environmental Policy 
Act (NEPA) analysis for these, and this was done prior to the 
court's ruling. Shouldn't these have also been included in the 
forest settlement's proposal?
    Mr. Tidwell. Well, Senator, as far as the timber sales, 
with this latest court ruling, there is an impact on several 
timber sales that we had completed the NEPA work.
    However, with the work that the region and the USFS has 
been doing over the last 2 years, we have moved out of these 
roadless areas so that, even with this court ruling, we can go 
forward with our planned program of work in the future. Even 
with this, because of the work that our folks were doing over 
the last 2 years, we're well-positioned to be able to move 
forward with a continued increase in the amount of timber 
harvest--not only this year, but also what we plan for 2012.
    Senator Murkowski. But, in fact, with the proposals and 
what has been advanced by the USFS and the others, if somebody 
decides to sue on this, there is nothing that provides 
protection from further suits. So, we may be no further ahead 
than we are right now. Is that correct?
    Mr. Tidwell. That's always the possibility. However, I feel 
that with the work that's been going on for the last couple of 
years to build more and more agreement about the need for our 
timber sales and for the restoration work that we need to do to 
help sustain these communities, we're seeing that we're able to 
implement more projects than we have been in the past. I think 
it's one of the things that we can continue to work on to build 
additional trust and understanding about the importance of 
forest management, the integrated wood products industry, and 
to help sustain these communities.
    When it comes to what was negotiated in this proposed 
judgment--it was a negotiation of being able to put together a 
list of projects that we felt were the most important to be 
able to go forward with right now, and at the same time, not 
preclude other projects from being considered that would have 
to meet the requirements of the 2001 Roadless Rule.
    As you know, everybody was in agreement, and so we 
submitted our proposal. The other proposals will be coming into 
the court. We're anxious to see just where we'll end up with 
this.
    Senator Murkowski. Well, I'll ask more in the next round, 
Mr. Chairman. Thank you.
    Senator Reed. Thank you, Senator Murkowski.
    We'll proceed by recognizing Senators as they arrive, going 
back and forth from side to side.
    Senator Johnson.

                         FLP--BLOOD RUN PROJECT

    Senator Tim Johnson. Chief Tidwell, welcome and it's good 
to see you again.
    And welcome, Ms. Atkinson.
    The USFS budget emphasizes conservation and outdoor 
recreation through robust funding for the LWCF. As you pointed 
out, this funding comes from offshore rail and gas lease 
revenue, not taxpayer dollars.
    As we develop our publicly owned natural resources, it 
makes sense to reinvest in public assets like our national 
forests.
    I want to highlight a particular FLP project--the Blood Run 
site in southeastern South Dakota. The State of South Dakota 
and local partners have made this acquisition along the Big 
Sioux River a top priority, and I'm pleased that the 
administration has included the project in its priority list 
for fiscal years 2011 and 2012. Converting the site into a 
State park will protect the area from encroaching development, 
and provide public access to this unique and historic outdoor 
area.
    This project involves significant coordination and 
financial commitment from a number of partners, and the State 
faces a limited time frame to purchase the property.
    Can you comment on the administration's commitment to 
completing this project?
    Mr. Tidwell. Senator, as you've mentioned, this project is 
on our priority list for all the reasons that you've stated.
    As far as being able to move forward with the current level 
of funding that we have in 2011--I'm not sure if it's on the 
list of projects that's funded in fiscal year 2011. So it'll 
depend on the amount of funding we receive in fiscal year 2012 
if we can move forward with this project in this coming year.
    Senator Tim Johnson. Sooner or later, can you make a 
commitment as to the completion of this project?
    Mr. Tidwell. Probably when we receive our budget for 2012, 
we'll be able to get back to you and be able to tell you if 
this project can go forward. It will depend on the amount of 
funding that we receive.

                     LAND ACQUISITION--LADY C RANCH

    Senator Tim Johnson. Similarly, I also want to ask about 
the project that was not included in the fiscal year 2012 
priority list, because it was assumed that it would be 
completed with 2011 funding. The Lady C Ranch is an important 
inholding in the southern part of the Black Hills National 
Forest. We have been working on this 2,400 acre acquisition 
project for years, bit by bit, with willing and very patient 
sellers. We are now in the very last phase with just $765,000 
remaining to complete the project.
    Can you provide an update on the status of fiscal year 2011 
land acquisition funding? If a project like the Lady C Ranch 
doesn't receive funding in fiscal year 2011, will it receive 
consideration in 2012?
    Mr. Tidwell. Senator, we did not receive enough funding in 
fiscal year 2011 for this very beneficial project. Depending on 
the funding that we receive in fiscal year 2012, that will 
determine how far we can go down on the priority list.
    A project like you've just mentioned, if we're not able to 
finish it in 2012, I would hope we can then have it very high 
on the priority list for fiscal year 2013.
    You've done a very good job to express the amount of 
support that's always behind our LWCF projects--that these are 
not only willing sellers. There's always strong support from 
the communities----
    Senator Tim Johnson. Yes.
    Mr. Tidwell. A lot of folks use these lands.
    We go through great lengths to set the priority list that 
we send up here for your consideration each year. I can tell 
you that it's always difficult to decide which project actually 
is a higher priority than the others, because they're all 
excellent projects, and ideally we'd be able to accomplish all 
of them over time.
    Senator Tim Johnson. What criteria do you use in your, 
enumerating your priority of the projects?

                    LAND ACQUISITION--PRIORITIZATION

    Mr. Tidwell. The criteria that we've been using looks at 
the overall benefits. For instance, if it continues to maintain 
or increase public access, if wildlife habitats are going to be 
enhanced, if there are other recreational opportunities 
enhanced, and if there is a reduction in administrative costs. 
Almost always with our acquisitions, we reduce our 
administrative costs by not only eliminating the boundary, 
lines that have to be maintained, but also when it comes to our 
restoration work. When you don't have to worry about a section 
of private land that's surrounded by national forest, it's a 
lot more efficient to design your restoration work and your 
forest health work. Those are some of the criteria that we use.
    The other key part of it is if the project is ready, and by 
ready, I mean strong support is in place. The other thing we 
also look at is if these projects can be phased in over a 
period of years. We often like to at least get started on 
projects. If the owner is willing to work with us over several 
years, that often helps us be able to get started on the 
project.
    Senator Tim Johnson. Very good, Chief.
    Senator Reed. Thank you very much, Senator Johnson.
    Senator Cochran.

                FLOOD DAMAGE--HOMOCHITO NATIONAL FOREST

    Senator Cochran. Mr. Chairman, thank you.
    Let me bring to your attention something you already know a 
little bit about. If you've been watching television, we've had 
huge damage done to forests, businesses, and homes in our State 
of Mississippi because of the flooding of rivers and streams--
not just the Mississippi River, because it's really still 
within its banks, due to the fantastic work that has been done 
over time to protect landowners and homeowners along the 
Mississippi River.
    But in the Delta National Forest, which comes to mind, 
there are small businesses and farms in and around the Delta 
National Forest. And I wonder if you've had an opportunity to 
assess the extent of damage, and whether you are involved 
actively with other Federal agencies in trying to assess the 
situation and prevent further damage, and try to somehow help 
us recover from this terrible natural disaster.
    Mr. Tidwell. You know, Senator, we haven't done any 
assessments of the overall damage. We have been focused on 
public safety and ensuring that places where people camp or go 
hiking either are going to be above the floods or that folks 
are no longer out there, especially as the waters continue to 
increase.
    As soon as the water starts to recede, we'll be in there to 
assess the damage to see what we need to do to maybe shift some 
of our planned program of work for this year to deal with the 
aftermath. It's our experience that there'll be a lot of downed 
trees that we'll need to deal with to get roads opened up, et 
cetera. Also, we need to take advantage of the timber that's 
down, and move quickly to remove it so that we don't create 
another insect and disease infestation that often occurs 
following a situation like this. So, we are poised and working 
with the other agencies in the Department of Agriculture, and 
specifically the Natural Resources Conservation Service (NRCS), 
so that we'll be working together and not only helping to 
address the issues on the national forests, but also on the 
adjoining private land if there are things that we can do, 
especially with the NRCS programs, to assist those folks.
    Senator Cochran. Well, we thank you for your leadership, 
and for being prepared to move quickly when the time is right, 
to try to provide that kind of assistance. We appreciate that 
very much.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Cochran.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    And once again, Chief, good to have you here.
    Ticker's doing good?
    Mr. Tidwell. Yes, I'm still here----
    Senator Tester. That's good.
    Mr. Tidwell [continuing]. It's doing well.
    Senator Tester. Because it's good to have you here.

                        RESEARCH AND DEVELOPMENT

    I want to bore down a little bit into the budget. And like 
I said in my opening comments, I think we all have a tough job. 
There's, we know that the deficit and debt issues are 
critically important to get under control. On the other hand of 
the equation, we need to do it right so we don't create more 
problems than we're solving.
    Forest and rangeland research, a $16 million cut. Research 
and development is something that's pretty important in our 
overall economy. Can you give me a little insight, and be as 
concise as you can, as to what the substantiation for that cut 
is?
    Mr. Tidwell. Well, Senator, I share your concerns. As we 
put together our budget proposal, we had to make some very 
difficult decisions about where we could propose some 
reductions.
    And what we did with our research work is that we looked at 
our ongoing research and identified which of those projects we 
could go ahead and defer some activity, but at the same time, 
not lose the overall investment that we've made. We actually 
went through research project-by-research project to determine 
where we could either slow down the amount of research or delay 
it for a few years, and not lose that overall investment.
    Senator Tester. Can you tell me what kind of research 
you're taking about mainly? Are there main categories they fall 
into?
    Mr. Tidwell. We went through just about everything that we 
do. One of the areas where we've tried to maintain the 
essential funding is the research that we're doing dealing with 
invasives, especially with some of the insects that we're 
dealing with. As it was mentioned earlier, the Asian longhorned 
beetle is one; the emerald ash borer is another one.
    Senator Tester. Yes.
    Mr. Tidwell. But at the same time, with gypsy moths, where 
the research is in place, we felt that we could probably go 
ahead and defer or delay any additional research at this time.
    Senator Tester. Okay.
    Mr. Tidwell. The other key part of the reduction is with 
our forest inventory and analysis work that provides the long-
term database of the condition of our forests in this country--
not just on national forests, but also on private land. This is 
an essential database that almost everybody uses today.
    And we had to make some tough decisions. There were a 
couple of States that we felt we didn't need, that we could 
postpone putting out additional plots. Those are the types of 
decisions we had to make.

                        WILDLAND FIRE MANAGEMENT

    Senator Tester. Okay. Wildland fire management, $400 
million, almost $400 million. Fires are a fact of life. But we 
all know we need to handle them in a way--because there's a lot 
of people that live out there, there's a lot of forest 
communities.
    Can you tell me how that budget's going to impact 
firefighting, and in particular, if it's going to have any 
impact on protecting our forest communities?
    Mr. Tidwell. Our proposed budget will provide the same 
level of preparedness that we've had for the last few years--
the same number of firefighters, the same number of aviation 
resources.
    Senator Tester. Okay. So, where'd the $400 million come 
from?
    Mr. Tidwell. Well, part of it, close to $100 million of 
those funds are part of the IRR budget line item.
    Senator Tester. Which does what?
    Mr. Tidwell. Some of the hazardous fuels funding was moved 
into IRR.
    Senator Tester. Okay. So let's just stop there for a 
second. It was moved into other accounts, so it's still going 
to be funded? Or it's not going to be done?
    Mr. Tidwell. The majority of it was moved. There was a $9 
million reduction in hazardous fuels work that we do outside of 
the WUI.
    Senator Tester. Right. Because if there's more hazardous 
fuels, it sounds to me--and correct me if I'm wrong--there's 
more potential for fire. And you might have the same number of 
firemen, but you may have more fires.
    Mr. Tidwell. That's where it's a combination of addressing 
the hazardous fuels, but at the same time providing that level 
of preparedness. We felt it was essential to maintain almost 
the same level of fuels work.

                          WORKFORCE MANAGEMENT

    Senator Tester. Okay. About 1,819 employees will be 
terminated, or not replaced if they retire, however you're 
going to do it. And I'm all about making folks lean and mean, 
and all that. Can you give me an indication on where those 
people are going to come from?
    Mr. Tidwell. We do project it'll be, with this budget 
proposal, a loss of about 1,800 permanent, full-time positions. 
That's about what our attrition rate is each year. So, we 
believe that for this budget proposal, with what we normally 
see with the number of people that retire or leave the agency, 
we'll be able to handle this reduction without having to take 
any actions with any of our employees.
    The challenge will be to match up where we've lost funding 
in the programs with our existing workforce. But we have done a 
very good job managing our workforce. We have had a stable, 
flat workforce since about 1995, and we've continued to do more 
and more work through contracting, so we are, I believe, well-
positioned to handle this because of our conservative approach 
to our workforce over the years.
    Senator Tester. Just one last, if I may, Mr. Chairman.
    You touched on something that drives me crazy in 
Government, in that we reduce the workforce on one hand. And we 
replace it with contract labor on the other hand. The cost is 
more than the workforce that existed before. That's not going 
to happen here?
    Mr. Tidwell. No, I believe we'll probably be doing less 
contract work in 2012 to be able to maintain our existing 
workforce.
    Senator Tester. Okay. Thank you very much.
    And thank you.
    Senator Reed. Thank you.
    Senator Blunt.

                             BUDGET TRENDS

    Senator Blunt. Well, thank you, Chief, for being here, and 
Director.
    And maybe just to follow up on that a little bit--the 
budget you're requesting increases overall budget numbers, is 
that right?
    Mr. Tidwell. There's a slight increase to provide funding 
for the Secure Rural Schools program that hasn't been part of 
our budget in previous years. So that's the increase that you 
see.
    Senator Blunt. And how much is that program?
    Mr. Tidwell. $328 million.
    Senator Blunt. All right. So there is actually in the 
traditional budget, you're looking at a decrease?
    Mr. Tidwell. Well, it's basically a flat budget.

                 PESTICIDE REGULATIONS--CLEAN WATER ACT

    Senator Blunt. Let me mention one thing in that statement, 
though. Just looking at the Mark Twain National Forest, which 
is 1.5 million acres in Missouri, the estimate is that we're 
adding about 210 million board feet worth of growth every year, 
and we're harvesting 17.2 million. Adding 210 million, 
harvesting 17.2 million. That 17.2 million is worth about $2.1 
million. The 210 million would be worth about $21 or $22 
million.
    Just on the record, you know, I really think one of the 
ways to manage the forest is to go in there and be sure that 
we're doing the management job we should do and capitalizing on 
these resources at the same time.
    Another resource that I think could be huge for the country 
and for our State would be the whole idea of woody biomass, and 
what we can do with that, and the resource that provides for 
the USFS.
    I've got a couple of questions, though, to ask specifically 
on. I want to be sure and get in the time the chairman's given 
me here.
    And one is that the Environmental Protection Agency's (EPA) 
attempting to classify pesticide application to crops and to 
forests as point source, which subjects them to the Clean Water 
Act. There's already a lot of Federal laws in place to control 
pesticide applications.
    I think this is going to have a real impact on forest 
managers. And I'm wondering--has the USFS reached out to the 
EPA on behalf of the managers to challenge this addition of 
forest into the point-source category?
    Mr. Tidwell. Well, Senator, we work with the EPA on all of 
their regulations. One of the things that I always want to 
stress with them is the need for us to be able to do the forest 
health work, the restoration work, and the timber harvest work 
to maintain and restore these forests. We work very closely 
with the EPA, so that the regulations that they move forward do 
not necessarily restrict those activities that are so 
important, but actually allow those activities to go forward.
    We continue to have discussions on all of their 
regulations, so that we can move forward in a way and still do 
the work that has to be done on the landscape.
    Senator Blunt. On this one, are you in agreement with the 
forest being a point-source designee?
    Mr. Tidwell. Are you referring to this under-the-roads 
portion?
    Senator Blunt. I think that's right.
    Mr. Tidwell. Oh.
    Senator Blunt. Under the--no, this is, this would be 
pesticides.
    Director, do you want to clarify what I'm--
    Mr. Tidwell. You know, Senator, I'll have to get back to 
you on this one.
    [The information follows:]

    In January 2009, the Sixth Circuit Court of Appeals determined that 
residues of chemical pesticides and biological materials are point-
source pollutants. Because of that court finding, the Environmental 
Protection Agency (EPA) is obligated under the Clean Water Act to 
develop a National Pollutant Discharge Elimination System (NPDES) 
permitting system for pesticide applications on/over/near waters of the 
U.S. Most States have ``primacy'' under the NPDES program, and will 
develop permits at least as stringent as those requirements that the 
EPA establishes. The United States Forest Service (USFS) will need to 
establish internal procedures to meet State-level requirements of NPDES 
permits. Our forest health protection program is the USFS lead for 
pesticide management and has been engaged over the last couple of years 
in talks with the EPA on development of their proposed NPDES Pesticide 
General Permit (PGP). Because State requirements are still yet-to-be 
determined, pending the release of the EPA PGP, the impacts on our 
agency are still largely unknown. We will continue to maintain 
communications and work with the EPA to ensure that we stay current on 
the PGP timeline and subsequent State requirements.

    Senator Blunt. All right. That would be great. That would 
be great. I'd like to hear more about this. Because I think 
it's a new--it treats them in a different way than they've been 
treated in the past. And I think it creates a management 
challenge. So, well, let's, let's keep talking about that.
    Mr. Tidwell. Okay.

                        THOUSAND CANKERS DISEASE

    Senator Blunt. That was actually going to be my next thing 
to say on that. Well, let's continue to talk about it and see 
if there's not a better way to do this, than to create another 
management nightmare for forest managers that you represent, 
including the forest management that the Government itself 
does.
    I also wanted to be sure and call attention to a disease 
that threatens black walnut trees. It's called the thousand 
cankers disease. And I know you're familiar with it already. 
It's domestic. I think Animal and Plant Health Inspection 
Service only gives priority to exotic, invasive species. I'm 
not sure what the treatment will be with thousands cankers, but 
I do know that it has the potential--at least I'm told it has 
the potential to wipe out millions of, and billions of black 
walnut trees in Missouri and in other places. And just a little 
comment on where we're headed there would be helpful, Chief.
    Mr. Tidwell. Thousand cankers disease has been out West for 
years, and it really hasn't been a major concern. But now, as 
it's moved eastward, and especially to black walnut, we're very 
concerned. Our research scientists are now focusing on that to 
try to discover the insect vector with this pathogen, so that 
we can develop some type of either biological control or 
insecticide, et cetera, to be able to stop this before it 
really gets established more than where it is right now.
    Senator Blunt. And the reason it was less of a problem in 
the West than it will be as it moves into the eastern tree 
species is what?
    Mr. Tidwell. Well, for instance, the black walnut is a 
highly valuable tree. Some of the species that it's infested in 
the West, those species have evolved with it, so it doesn't 
take out all of them, it just reduces some of those stands. 
They're usually the less profitable trees where we've had this 
disease. So actually out West, it doesn't really cause a big 
problem.
    The other thing we want to also look into is, what's 
created this change now allowing thousand cankers disease to 
start moving East, so that we can also understand if there are 
some things that we can change so it can't go even further 
East, or head North, or wherever. So that's the other thing 
that we want to look into--not only the specific control, but 
to understand, what's changed and if it's some type of change 
in our climate that's allowed this pathogen to expand, or what. 
That's the other thing that we're looking into.
    And there's some urgency to get ahead of this before it 
becomes a major problem.
    Senator Blunt. Well, if you'll put me on your list to 
update on this----
    Mr. Tidwell. Yes.
    Senator Blunt [continuing]. As you look at it, I'd be very 
pleased to be both involved and supportive in your efforts 
there.
    And thank you for the time, Chairman.
    Mr. Tidwell. Thank you.
    Senator Reed. Thank you.
    Senator Hoeven.

                     AGRICULTURAL MEDIATION SERVICE

    Senator Hoeven. Thank you, Mr. Chairman.
    Chief, good to see you again. Thanks for being here today.
    And, Ms. Atkinson, thank you as well.
    Also, Chief, I want to thank you for coming out to North 
Dakota and spending some time with our ranchers in the 
grasslands. We appreciate it very much. And you were very 
responsive after your testimony in front of the Energy and 
Natural Resources Committee. So thank you very much. And, I 
think that your visit out there was well received.
    I guess I want to follow up on a couple of the issues that 
we discussed, and that I know you had opportunity to discuss 
with the grazing associations and our ranchers in the 
grasslands, and make sure that your planning--both in terms of 
your management plan, but also in terms of your budget--to 
follow up on some of the things that are of particular 
importance to our ranchers and grazers.
    The first relates to use of the Ag Mediation Service. And 
I'd like your comment both in terms of using the Ag Mediation 
Service up front when those contracts are signed with a 
grazer--well, I actually should take a step back--in 
negotiations with the grazing associations, but then also 
contracts with the grazers, and then ongoing dispute 
resolution. So, if you would comment on all three of those?
    Mr. Tidwell. Senator, what we had discussed when I was out 
in North Dakota is to be able to use certified mediators to 
help in two steps of the process.
    The first one is, before we even start any of the proposed 
projects or a proposed NEPA, to address the grazing agreements 
and to use those certified mediators to help bring people 
together so we have a better understanding of the issues, 
whether it's issues the USFS has or issues the grazers have, so 
that as we move forward there is a better understanding of just 
what we need to address.
    Then, the second part is during our pre-decisional process, 
before a decision is made, to actually use the certified 
mediators to really bring the parties together and talk through 
that prior to when that decision's made.
    We felt those were the two areas that we could probably 
have the most benefit, to use the additional skills available 
to really head off some of these issues before a decision's 
actually made.
    Senator Hoeven. Delineate in your mind where you have 
agreement with the grazers, the grazing associations, and where 
you don't.
    Mr. Tidwell. It's different, probably, with each of the 
associations where we have agreement. There is definitely some 
disagreement over which parts of the grasslands have the 
biological potential for the high structure, to produce grass 
high enough to address the wildlife habitat concerns. We have 
come to agreement with the university to go forward with the 
study to be able to help determine that. I think once 
completed, that'll go a long way to resolve what I believe is 
probably the number one issue that we have with the grazing 
associations.
    I think bringing people together and having them sit down 
with a certified mediator can resolve a lot of the other issues 
that have continued at times. We need to focus on not only 
maintaining the grasslands, but continuing to do it in a way 
that not only sustains grazing but also can increase wildlife 
habitat opportunities.

                  GRAZING MANAGEMENT--WILDLIFE HABITAT

    Senator Hoeven. Are you willing to wait to get the study--
and I appreciate you using the range scientists at North Dakota 
State University. I think that's helpful, both because they're 
very good, but also, because the grazers in our part of the 
world have confidence in them and tend to know them. And so 
they have a higher comfort level with them.
    But both as to the structure, the grass structure and so 
forth, as it relates to wildlife like the sage grouse, and as 
it relates to current management practices and any change you 
would make in your management practices, are you willing to 
look at those studies first, get some agreement with the 
ranchers, hopefully, a meeting of the minds, use some of those 
mediators if you need to, to get that meeting of the minds, 
before you go forward with the new management plan?
    Mr. Tidwell. Well, Senator, without having the specific 
knowledge of the status of each one of those agreements, and 
also which allotments we've completed, to determine whether we 
have the biological capability or not, I would suggest that we 
look at each situation on its own merits and make that 
determination of where we have adequate data to be able to move 
forward. Where we don't, then we need to wait and collect 
additional information.
    Most, if not all the ranchers are good managers. We share 
the same results. They want to be able to sustain that forage 
so they can go out year after year. We all know that no two 
years are the same, as you well know in your State. That's the 
other thing we have to factor into it--every year we have a 
different amount of precipitation, and a different amount of 
growth that occurs. We need to collect information over a 
period of time, and then we can make adjustments.
    The other thing is that these adjustments don't have to be 
permanent. They can be very flexible depending on each year 
because no 2 years are going to be the same. I think the other 
key part of is to be able to reach an agreement about--this is 
what we want the grasslands to look like when we're done each 
year and then to work together to have the right stocking level 
out there. That's where the ranchers are in the best position 
to make that determination.
    Senator Hoeven. Mr. Chairman, with your indulgence, if I 
could----
    Senator Reed. Go right ahead.
    Senator Hoeven [continuing]. Continue for just a minute.
    Well, two things. First off, you're absolutely right. For 
example, this year there's going to be a lot of high structure, 
because it's been, well, you know, even when you were out 
there, and there's been a lot of rain since then. So you're 
absolutely right about no two years are the same.
    But both in terms of, with some of the individual grazers 
who are anxious to get their contract or their leases signed, 
using those mediators could really be helpful. And I'd strongly 
urge you to do that wherever you can.
    Second, in a lot of other cases, both with individual 
grazers and the associations, really working on, together with 
them on the studies to get the results----
    Mr. Tidwell. Yes.

         GRAZING ASSOCIATIONS--FREEDOM OF INFORMATION REQUESTS

    Mr. Hoeven. Get a competence level, and then go forward 
with your agreements. I'd strongly urge you to do that. And I 
think that you've shown a willingness to work with them that I 
greatly appreciate.
    And the only other thing that I'd throw out, because my 
time is up, is, at least one of the grazing associations, if 
not more, has a Freedom of Information Act request into--and 
it's been pending for quite some time. And I'd really encourage 
you to respond to them on it. And if there's some issue or 
impediment, maybe you can let my office know, and we can try to 
follow up and help you with it.

                          LWCF--PRIORITY LIST

    Mr. Tidwell. Okay. Thank you, I'll do that. We'll, look 
into that tomorrow.
    Senator Hoeven. Okay. Thank you.
    And thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator.
    Let me begin a second round, and, by following up on 
Senator Johnson's question with respect to the LWCF.
    Now that you have an idea of the funding--in fact, a good 
idea of the funding for fiscal year 2011--and which projects 
you can complete, do you expect to send us an amended list for 
fiscal year 2012 that will take into account the projects in 
fiscal year 2011 priority list that were not funded?
    Mr. Tidwell. At this time, we're not planning to send up a 
changed list. The projects that were not funded in fiscal year 
2011 are the ones that we'd like to consider for our fiscal 
year 2013 proposals.

                      SECURE RURAL SCHOOLS PROGRAM

    Senator Reed. Okay.
    Let me turn to the issue of the Secure Rural Schools 
program. And both Senator Murkowski and I have indicated the 
challenge this poses to our budget. Discretionary funding of 
$328 million, as you said, Chief, if you take it out, you have 
a flat budget, basically. So, you've had to make some hard 
calls within your budget to do everything before you even got 
to Secure Rural Schools program.
    Previously, this was a mandatory funding program, so it 
didn't impact your budget. You also recognize that we had to 
cut 8 percent from the fiscal year 2011 continuing resolution. 
We don't have the Senate allocation yet. We have to fix the 
errata, which we mentioned before. And the House is working 
with a 10 percent reduction below their fiscal year 2011 
funding. So, there's huge pressure on the budget, and yet now 
we have this new program, more or less.
    And one other point I'd add, too, is, the shift from a 
mandatory program to a discretionary program, even for those 
schools that are benefiting, given the difficulty of funding 
discretionary programs, this is not something I think they can 
bet on for a long time, or feel secure about. So that's another 
aspect.
    But, essentially--and I'd be very eager for my colleagues 
to discuss it, and I'm sure we'll talk about this--are you 
working with the authorizers to continue this as a mandatory 
program, so that we have flexibility in the budget to do more 
traditional USFS activities?
    Mr. Tidwell. We've made it clear that we're very interested 
in finding a way to make this mandatory. I think everyone 
agrees. We agree that ideally that would be probably the best 
approach. As we were putting together our budget proposal, as 
you folks well understand, it was difficult for us to find the 
funding for a mandatory program.
    At the same time, it's such an important program, 
especially to these counties, and it provides the funding for 
their schools and their roads. This is also not the time for 
this program to be discontinued in our view. We have put it in 
the budget and understand the consequences. At the same time, 
we want to work with the authorizing committees. We'll work 
with this subcommittee. We'll work with anyone that has some 
ideas about how to pursue the mandatory program.
    Senator Reed. Well, obviously, we look forward to working 
with you. Just looking at the terrain at the moment, if we get 
something close to the House allocation, a 10 percent 
reduction, then, you know, no program, I think, is sacred. So, 
we're going to have to do something about this program.
    And again, I can see the premise behind the program. There 
was a loss of jobs, abrupt loss of jobs because of changing 
rules about timber cutting; communities who were at risk. And, 
frankly, my colleagues want, as I would, to protect their 
constituents. But it seemed to be a 5-year program that would 
have a finite point. And that point now is being extended.
    And also, there are some communities that are still 
suffering grievously--unemployment rates about 10 or 11 
percent. But, looking quickly at some of the other recipients, 
I've seen unemployment rates down to 2.7, 3.1, and 4 percent, 
which are, trust me, relative to Rhode Island, in fact, 
relative to Alaska, they're doing pretty well. So, there are a 
lot of issues we have to deal with in the context of this 
program. And, obviously, we're going to be working with you. 
And I'm working with the ranking member to see what we can do.

           PRIORITY WATERSHEDS AND JOB STABILIZATION PROGRAM

    Let me turn to another topic. That's the Priority Watershed 
and Job Stabilization program. What's the current status of the 
Watershed Condition Framework classifications? How far are you 
along?
    Mr. Tidwell. We have completed our assessment, and now have 
all 15,000 of our watersheds done. Basically, we've classified 
their current conditions, if they're healthy and stable, if 
they're at risk, or if they're actually an impaired watershed. 
We used a set of 10 to 12 criteria to make that determination. 
We have completed that, so we now have our baseline. As we move 
forward with our work over the years, we're going to be able to 
track the improvement by watershed.
    Senator Reed. Now, you've essentially prioritized these 
watersheds as you've described. Is there a geographic trend? 
Or, are you going to try to devote resources across the country 
based upon these critical or deficient watersheds? Is there any 
geographic principle?
    Mr. Tidwell. We have watershed concerns in every region of 
this country. The way I envision this will work is that, within 
our regions, they'll make some determinations about what is the 
best investment and where is the best place to do the work.
    I don't see any shifts in resources between regions. But I 
do see there will probably be a shift within national forests 
and also a shift in where we need to make the investment. For 
some of our watersheds--it's really a forest health issue. If 
we have a concern about potential catastrophic fire in there 
and the impacts, that might be the highest-priority work. In 
another watershed, it may just be improving the drainage on a 
few roads. I mean, that's the sort of thing that would really 
help us to identify, where's the best investment to make?
    You will see shifts in some areas as to what type of work 
we need to focus on first. But I don't believe you'll see any 
shifts between the regions on this, and it will probably be 
more shifts within the forest activities.
    Senator Reed. Can I ask a final question before I recognize 
the ranking member, and that is, it's called the Priority 
Watershed and Job Stabilization program. Can you kind of give 
me the concrete link between the watershed condition and job 
stabilization? I mean, how does this focus on jobs, or 
differentiate from other parts of the IRR, and any other 
elaboration about the job effect?
    Mr. Tidwell. Well, the connection with jobs is that, with 
this priority watershed focus, we want to look at larger 
landscapes. It's one of the places I feel we can gain some 
efficiencies. In the past, most of our planning and project 
design has been focused on relatively small acreages--500, 
maybe 1,000 acres. We want to look, encourage our forests and 
grasslands to look, at much larger project areas, like up to 
10,000 acres, so that we can gain some efficiencies. Also, we 
want to use stewardship contracting to be able to provide some 
certainty about the amount of work that's going to be done over 
the next few years. That is one of the places where we can, I 
think, increase jobs.
    By looking at larger areas this time, we'll just be able to 
get more work done, and thus be able to put more people to 
work.
    Senator Reed. Thank you.
    Senator Murkowski.

                      SECURE RURAL SCHOOLS PROGRAM

    Senator Murkowski. Thank you, Mr. Chairman.
    Just to follow up with the Chairman's questions about the 
Secure Rural Schools program. I think you've heard from the 
subcommittee here, as well as the Energy Committee--a great 
deal of concern about where we are with the Secure Rural 
Schools program right now and how it continues to meet the 
needs. I think the Chairman's noted that it is appropriate to 
be looking at it, but recognizing that in, for instance, in 
many of the communities in the Tongass that receive Secure 
Rural Schools program funding, there is no other economy there 
to grow to. And we've had this discussion before.
    A question for you with regard to, if we were to determine 
that within this fiscal year 2012 budget, that the funds that 
have been requested are appropriated, how will the funds be 
allocated? Do you, will you be sticking to the current formula, 
working with authorizers to revise that formula? What are you 
thinking at this time?
    Mr. Tidwell. We want to work with the authorizing committee 
to develop the legislative proposal. We made some, in my view, 
significant improvements when we re-authorized this 5 years ago 
from the initial authorization. I think there's an opportunity 
to continue that. We want to be able to work with the 
authorizing committee about how this would actually work over 
the next 5 years.

               TONGASS ROADLESS SETTLEMENT--TIMBER SALES

    Senator Murkowski. Okay. I want to take you back to the 
Tongass and the impact of the Roadless decision on the long-
term.
    As we, as you know, historically, the allowable board feet 
that have been put forth historically have been enough to 
sustain the area. The allowable sale quantity for the Tongass 
is 267 million board feet. But according to your own figures, 
the average offer level over the last 5 years--even with the 
Roadless exemption--has only been about 36 million board feet.
    So, if we are now to assume that the Roadless Rule applies 
in the Tongass, how do we deal with these, just, abysmally low 
numbers?
    Mr. Tidwell. Well, Senator, as I've expressed, we've not 
been happy with the amount of work we've been able to get 
accomplished on the Tongass over the last few years. I am 
optimistic with the focus on our transition plan--the focus to 
work, bring people to the table and provide more of a 
collaborative environment up there--that we are seeing some 
changes, and we saw that in 2010.
    Senator Murkowski. But, unfortunately, we're seeing--many 
of those who have been willing to collaborate and sit around 
the table at the Tongass Futures Roundtable, they're peeling 
off of that. And that's disappointing, I know, for you, 
certainly for me, and for those that have invested so much 
time.
    But do you really still feel that level of optimism?
    Mr. Tidwell. Well, I do. It's based on what we were able to 
accomplish in 2010, what the forest is planning to do in 2011, 
and what they're planning to do in 2012--even with the latest 
court ruling.
    I think, one of the things we need to do is to be able to 
move forward, to build some trust and credibility with the 
folks that have been on the roundtable, so that they can see 
that their hard work and the time that they spent working 
together is starting to pay off. They need to be able to 
actually get some work accomplished so that we can maintain the 
existing wood products infrastructure still there.

    TONGASS ROADLESS SETTLEMENT--TONGASS LAND MANAGEMENT PLAN (TLMP)

    Senator Murkowski. Well, I am usually a person that says 
the glass is half full. But I have been less optimistic, less 
encouraged--and certainly now, since this decision on the 
Roadless has come out, I feel pretty discouraged. That's why I 
started off my comments today asking if your folks would be 
willing to sit down with the people in Wrangell to talk about a 
local plan there. Maybe it's bit by bit that we're able to 
offer some degree of hope. But, I feel very, very discouraged 
and very frustrated right now.
    Do you think that the court's ruling is going to require 
that we rewrite the TLMP? And if so, if we've got to do the 
rewrite, how long is that going to take? What's it going to 
cost?
    Mr. Tidwell. Well, the reinstatement of the 2001 Roadless 
Rule by itself would not require us to revise that plan. I 
think we need to look at the Tongass plan, like all of our 
plans that we have to look at from time to time, and assess the 
current conditions to see if there's a need to do a revision or 
an amendment. That's one of the things that we're hoping to 
change with our proposed planning rule to be able to have a 
process that makes it easier to amend forest plans so that we 
don't spend the years, or in the case of the Tongass, a decade, 
to actually complete a plan, or complete a revision.
    The 2001 Roadless Rule in itself would not require us to do 
a revision.
    Senator Murkowski. But would you agree that if, in fact, it 
was rewritten, if you did have to rewrite it, wouldn't the 
allowable sale quantity be drastically reduced from what we 
currently have?
    Mr. Tidwell. You know, it would be my expectation that it 
would probably be reduced.

                              AIR TANKERS

    Senator Murkowski. So the glass is getting emptier.
    One last question for you.
    And then I'll quit here, Mr. Chairman.
    And this is regarding fire aviation and our tanker 
replacements. I got a letter from the Governor of the State, 
who is concerned about the USFS not including any water-
scooping amphibious aircraft--either the Bombardier or the CL-
415s--as you're looking to the replacement of the aging 
firefighting aircraft. The State of Alaska and the Bureau of 
Land Management both seem to really like the water-scooping 
aircraft. They seem to be working well within the State.
    What is the strategy for replacement of the aging air 
tanker fleet? And, kind of, where do you see that going?
    Mr. Tidwell. Well, I was hoping to have that completed by 
now. But, the RAND Corporation that's doing the study for us 
has not completed their work. We're hoping to get that here in 
the next month or so. Once we receive that, that'll probably be 
the last piece of information we need to move forward with our 
strategy.
    We want to look at all the various aviation resources that 
are available, and then look at which resources should the USFS 
provide? Which ones should the Department of the Interior 
provide? Which ones should our States, our cooperators provide? 
So that we have the right mix of resources.
    The Department of the Interior, I know, has a couple of 
scoopers under contract. The State of California often will 
bring planes down from Canada during their fire season. We'd 
use those in the Great Lakes sometimes. So, I think it's one of 
the tools that just needs to be included in the overall mix of 
aviation resources.
    Senator Murkowski. Do you see a situation where private 
industry could purchase some of these aircraft, and then work 
out some kind of a leasing arrangement? Is that something that 
is considered in part of the strategy here?
    Mr. Tidwell. Yes, the RAND Corporation will provide their 
views, their findings on what is the right mix of how many 
large air tankers, how many small air tankers, the type of air 
tankers, whether they're water scoopers--they will provide us 
some insight into that.
    The other part of it is that we'll have to really look at 
is what is the right way to acquire or maintain these 
resources? I believe that we're going to have to look at every 
option that we have. Our contractors that are currently 
providing our large air tankers have done an outstanding job to 
be able to keep these planes flying with these aging aircrafts. 
As we move forward, we're going to have to find some 
replacement solutions for our large air tankers. We know that. 
But there are various options, and part of that is definitely 
to continue to work with our contractors or with others that 
want to get into this business.
    Everything's going to be on the table as we determine what 
is the most economical way to go forward. I believe it'll 
probably take a mix of about every option that we have for us 
to be able to do this.
    Senator Murkowski. Well, I'm glad to think that you're 
thinking pretty holistically about how you're going to have to 
approach it. I think we recognize that when we're dealing with 
these tough budgets, some of these line items are going to 
raise some eyebrows. We know that it's going to be expensive to 
replace them, but we also know that we have to have them, that 
this is an asset that's going to be necessary as we deal with 
the fires, whether they're up in my State or out in Senator 
Tester's part of the country.
    And we recognize the risk that the men and women who are 
fighting these fires place themselves in. We want to make sure 
that the aircraft that are working, as well, are also safe so, 
that we don't have accidents there. So, big balance.
    Mr. Chairman, I thank you for the indulgence and extra 5 
minutes.
    And thank you, Chief. Appreciate it.
    Senator Reed. Thank you, Senator Murkowski, for your 
questions, and for your participation. So, thank you.
    Chief and Kathleen, thank you very much for your testimony 
today.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are any questions for the record, I would ask my 
colleagues to submit them by next Friday, May 27.
    And obviously, Chief, we would ask you to respond as 
quickly as you could to written questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Jack Reed

                            REDESIGN PROCESS

    Question. The State and private forestry programs are critical for 
Rhode Island and the region. In particular, the cooperative programs of 
forest stewardship, forest legacy, the urban and community forestry, 
and forest health are the foundation for program delivery at the local 
level. The United States Forest Service (USFS) has begun a redesign 
process of State and private forestry programs with an increased 
emphasis on a competitive process for funding, pooling funds from 
multiple programs and taking 15 percent of those funds and designated 
them to the new competitive program. This program could provide 
opportunities for all States to benefit from new, innovative ideas. 
However, it is important to have a balance and ensure that States have 
the funding they need to continue to meet their fundamental 
programmatic goals.
    What has been the impact on funding for the cooperative programs in 
Rhode Island and the Northeast region under the redesign process? 
Specifically, what has Rhode Island and the region received in formula 
and competitive grants for the 2 years prior and each year since the 
redesign program, and how much would those States have received if 
there were no redesign in the funding process? In addition, what are 
the projected funding levels for Rhode Island in fiscal year 2012 in 
the President's budget and current operating plan of the redesign 
process, and what would the projected levels be if there were no 
redesign process?
    Answer. In the Northeast region, most States fare better under the 
redesign process than they would without it. If the redesign process 
was not in effect it would not necessarily mean that all of those funds 
currently allocated competitively via the redesign would be allocated 
to States via formula.
    Redesign was implemented starting in fiscal year 2008. The 
following table shows the amounts that Rhode Island received from 2006 
to 2011 in cooperative programs with redesign and estimated amounts 
without redesign based on historical cooperative program allocation 
methodologies.

------------------------------------------------------------------------
                                                              Without
               Fiscal year                 With redesign     redesign
------------------------------------------------------------------------
2006 \1\................................        $595,095         ( \2\ )
2007....................................        $620,386         ( \2\ )
2008....................................         611,342        $542,010
2009....................................         576,100         583,760
2010....................................         800,561         805,361
2011....................................     \3\ 636,806         583,173
------------------------------------------------------------------------
\1\ Does not include forest legacy project funding or the American
  Recovery and Reinvestment Act of 2009 funding.
\2\ Not applicable.
\3\ Estimated.

    We expect Rhode Island will receive about 3 percent less core 
funding in fiscal year 2012 than in fiscal year 2011, accounting for 
the reductions in applicable State and private forestry programs 
proposed in the fiscal year 2012 budget justification. Rhode Island 
also received $48,000 in redesign competitive funds in fiscal year 
2011. However, it is unknown at this time whether Rhode Island would 
receive more or less funding of this type in fiscal year 2012 as the 
competitive process is currently underway.
    The following table displays the funding that all other States in 
the Northeastern area have received prior to and following 
implementation of redesign which occurred in 2008. The table also 
indicates estimated funding that would have occurred without redesign.

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year     Fiscal year     Fiscal year     Fiscal year     Fiscal year
                              State                                    2006            2007            2008        2008 without        2009        2009 without        2010        2010 without
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Connecticut.....................................................        $566,353        $643,744      $1,014,341        $729,445        $692,097        $652,908        $839,621        $888,955
Delaware........................................................         585,786         585,780         776,167         558,541         568,538         553,912         528,556         534,156
Iowa............................................................         985,768         968,193       1,461,507         936,966       1,367,481         896,940       2,108,336       1,005,872
Illinois........................................................       1,369,140         937,685       1,794,860       1,508,988       1,358,578       1,593,550       1,151,052       1,210,712
Indiana.........................................................       1,009,156       1,054,086       1,130,821       1,023,165       1,265,951       1,125,704       1,601,179       1,281,890
Massachusetts...................................................         788,592         899,929       1,066,312         967,016       1,030,931         966,898       1,392,240       1,064,047
Maryland........................................................         991,941         969,754       1,048,238         977,457       1,110,810       1,005,594       1,198,651       1,088,973
Maine...........................................................       1,364,764       1,432,366       1,352,719       1,502,817       1,664,914       1,593,874       2,077,137       1,722,238
Michigan........................................................       1,835,151       2,226,190       2,278,720       2,300,419       2,541,342       2,336,626       2,071,368       2,333,767
Minnesota.......................................................       1,655,628       1,673,780       1,605,033       1,639,593       2,016,194       1,743,575       1,917,506       2,076,423
Missouri........................................................       1,557,001       1,612,844       1,555,989       1,628,229       1,920,246       1,740,058       1,641,328       1,783,323
New Hampshire...................................................         814,340         852,879         757,408         817,230         858,627         831,749       1,321,680         845,906
New Jersey......................................................         853,793         841,537         859,791       1,022,763       1,223,340       1,219,874       1,075,975       1,276,634
New York........................................................       1,941,144       2,370,898       2,192,554       2,719,401       2,960,915       2,819,203       2,482,017       3,041,044
Ohio............................................................       1,462,756       1,532,074       1,965,988       1,667,520       1,456,865       1,534,025       1,500,904       1,762,108
Pennsylvania....................................................       1,399,397       2,067,392       1,552,856       1,863,030       2,085,362       2,221,370       2,741,349       2,619,048
Vermont.........................................................         694,818         726,295         800,241         736,503       1,413,321         792,743       1,126,306         786,216
Wisconsin.......................................................       2,092,958       1,959,994       2,284,811       2,014,168       2,315,816       2,187,470       2,449,154       1,977,104
West Virginia...................................................       1,136,784       1,322,140       1,161,956       1,230,334       1,446,253       1,362,901       1,365,297       1,399,616
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Total.....................................................      23,641,365      25,232,946      26,660,312      25,843,585      29,297,581      27,178,974      30,589,656      28,698,032
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Going forward, what is the outlook for the redesign 
process? For future years, what will be the minimum level or percentage 
that goes out in competitive bids, and who makes that decision?
    Answer. USFS anticipates that the percentage of funding that goes 
into redesign will remain the same. Of the net available for State and 
private forestry funds, traditionally 15 percent has been awarded to 
State forestry agencies via the competitive process (not including 
forest legacy; volunteer fire assistance; and forest health 
management--Federal lands). This level is after congressional requests 
and national commitments are removed. The Deputy Chief of State and 
private forestry work in conjunction with the State foresters to make 
that decision.
    Question. In addition, how can we give a commitment to smaller 
State programs which may have limited capacity to compete for funding 
in order to ensure their continued capacity to meet the programmatic 
goals of the cooperative programs?
    Answer. All States, regardless of size, receive and will continue 
to receive core State and private forestry funding that supports their 
capacity to meet State and private forestry program goals. In addition, 
the Northeastern area has partnered with the Northeastern Area 
Association of State Foresters (NAASF) to implement an approach that 
focuses Federal investments on issues, challenges, and opportunities 
across the landscape. The purpose of the competitive allocation of 
funds is to shape, influence, and enhance forest land management on a 
scale and in a way that optimizes public benefits from trees and 
forests for both current and future generations. This model has been 
designed to address on-the-ground priorities, integrated across program 
areas, with the goal of delivering Federal funds to non-Federal 
partners.
    USFS views the annual competitive allocation as a partnership where 
we have a regular dialogue with States and NAASF. We have joint goals 
to ensure the fairness of the process and the ability of each State to 
compete for the available noncore funding. The USFS works on many 
fronts to provide training and support to help deliver grant 
applications that will compete and rank fairly against other States. In 
New England and the mid-Atlantic, the USFS serves States that are 
smaller geographically than others, yet are extensively forested and 
densely populated.
    USFS has a network of field offices with responsibility to meet the 
needs of these States. Field representatives work directly with each 
State forester to deliver Federal programs. Additionally, our field 
offices have technical staffs who work cooperatively with technical 
staff at the State level to accomplish results. Our field 
representatives and technical staff advise States on the development of 
strong grant proposals, through training, technical visits, and 
coordination and information sharing among States. The work is done in 
a one-to-one manner, as well as in a networking fashion. States also 
network amongst each other to address common issues. Many of the funded 
2011 competitive allocation grant applications involve landscape 
projects across multiple States.
    In addition to our local leadership and technical work with States, 
our regional grant administration staff provides frequent training to 
States and works daily with State forestry agencies, from the 
development of grant proposals through delivery on funding and 
execution of work on-the-ground. Where States have been unsuccessful in 
competitive allocation bids in the past, the field representative and 
field staff makes a focused effort with that State the following year 
to help them compete, individually or in partnership with other States 
facing similar issues.

                      FOREST LEGACY PROGRAM (FLP)

    Question. FLP has been a great success in Rhode Island. FLP funds 
have been effectively leveraged with State, local, and private funds to 
protect forested lands that will be managed according to conservation 
values, while at the same time contributing to the local economy by 
conserving working forest landscapes. There are two important phases of 
the conservation process: the acquisition itself and the ongoing 
oversight of the land. Land acquisition for forest protection can be a 
complex undertaking involving multiple funding sources with different 
administrative processes and reporting. In addition, each FLP 
acquisition will demand oversight and compliance activities including 
field review to assure commitment to baseline conditions and forest 
stewardship goals.
    As more lands are protected under FLP, is there a role for greater 
partnerships between the Federal and State officials to ensure the 
proper management and oversight of acquired lands? In addition, is 
there a way to ensure that States have the necessary resources, such as 
training and staff, to comply with all responsibilities to effectively 
implement this program over time?
    Answer. Yes, in acquiring lands and especially conservation 
easements, States have taken on perpetual stewardship responsibilities. 
Upon entering the FLP, States have committed to managing and monitoring 
the lands and interests in lands acquired through FLP. This commitment 
is also in the grant agreement that States enter with USFS. Under 
current FLP implementation guidelines, no FLP funds can be used 
directly for conservation easement monitoring.
    USFS provides each State with annual administration grant funds. 
These are separate from project grant funds. These can be used for due 
diligence costs for FLP projects such as appraisals or surveys, staff 
salary, training, and to purchase necessary software or equipment for 
conservation easement stewardship. Administration grant funds and 
project grant funds may be used for development of baseline 
documentation reports and forest stewardship plans.
    USFS has strong partnerships with the States that participate in 
the FLP. USFS provides training to States on conservation easement 
stewardship. This is done through national and regional FLP managers 
meetings and through conservation easement monitoring training 
sessions. One such training is planned by a field unit in July of this 
year. As noted earlier, States may use FLP administration grant funds 
to attend USFS-sponsored trainings or other trainings and may also use 
their administration funds to visit other States to learn about their 
conservation easement stewardship practices. There are examples of 
States using their administrative funds to do both of these activities.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                 MARIJUANA CULTIVATION ON PUBLIC LANDS

    Question. As you may know, my home State of California once again 
led the Nation with more than 70 percent (7.1 million) of all the 
marijuana seizures in the United States. It is our duty to protect 
these lands for all Americans and allow for safe, uninhibited access to 
our Nation's treasures. For the past 2 years, our national forests have 
been the largest home to illegal marijuana cultivation grows in 
California. In 2010, the U.S. Forest Service (USFS) Pacific Southwest 
region eradicated more than 3 million marijuana plants with a street 
value of more than $3 billion on 585 grow sites.
    What funds have been allocated to combat this problem in the 
Pacific Southwest region or more specifically California forests?
    Answer. USFS did not receive any funds specifically for drug 
enforcement. In fiscal year 2010, law enforcement and investigations 
spent 10.4 percent, $15.2 million nationally, of our $144,252,000 
general allocation on drug enforcement and investigation operations. Of 
the $15.2 million, $6.6 million was spent in California for drug 
trafficking operation activities on National Forest System (NFS) lands.
    Question. Is money appropriated for marijuana eradication efforts 
spread equally or based on the grow threat of each forest?
    Answer. The other eight regions of the USFS spent about 7.3 percent 
of their resources on drug enforcement. The law enforcement and 
investigations resources are utilized for eradication operations as 
needed on forests throughout the Pacific Southwest region.
    In 2010, the Campaign Against Marijuana Planting (CAMP), a program 
operated and run by the California Department of Justice and Bureau of 
Narcotics Enforcement eradicated almost 50 percent of the marijuana 
located on USFS lands during large-scale operations. CAMP has praised 
your assistance on operations, the use of law enforcement, and the 
allocation of $200,000 in 2010 which assisted them greatly with budget 
cuts.
    Question. How will budget cuts to the CAMP program affect 
eradication efforts on USFS lands in California?
    Answer. The budget decreases to the CAMP program will affect 
eradication efforts on NFS lands in California. It is not known what 
the State of California will provide to the CAMP program.
    Question. Given the focus of CAMP program on USFS lands, do you 
have plans to allocate funds to this program?
    Answer. The fiscal year 2012 President's budget proposes funding 
CAMP at the same level as provided in fiscal year 2011 at $200,000.
    I want to commend you for making the reclamation of marijuana grow 
sites a priority. I have been told that in 2010 the USFS Pacific 
Southwest region spent 33,500 man hours to reclaim 335 grow sites and 
remove more than 300,000 pounds of trash and debris.
    Question. How much money was spent last year to reclaim these 
sites?
    Answer. The Pacific Southwest region spent $2,435,000 to clean up 
the sites.
    Per statistics reported to our office, California forests have a 
remaining 490 grow sites that have yet to be reclaimed causing 
environmental destruction and animal deaths.
    Question. How much money has been allocated to reclaim the 490 grow 
sites?
    Answer. While not specifically targeted, the cleanup of these toxic 
sites remains a priority for watershed restoration, balanced with other 
restoration needs. In fiscal year 2010, $3.5 million of NFS funds were 
allocated for site clean-up. In fiscal year 2011 clean-up remains a 
priority but no specific allocation was made.

            NIGHT-FLYING HELICOPTERS AND AIRTANKERS STRATEGY

    Question. Chief Tidwell, on May 26, 2010 you testified in front of 
this subcommittee that USFS would complete reviews of night operations 
and the optimal combination of helicopters and airtankers by January 
2011. This did not occur, and I understand that now you do not expect 
to complete these reports until at least late summer. So I will once 
again ask you Chief: When will this subcommittee receive the Helicopter 
Night Operations Study; the RAND Corporation's Determination and Cost 
Benefit Analysis of the Optimum Mix of Helicopters and Airtankers Study 
(RAND Corporation Study); and the Forest Service Large Airtanker 
Strategy (Strategy)?
    Answer. USFS is working on the Helicopter Night Operations Study 
and is coordinating with cooperator agencies in southern California to 
provide helicopter night-flying coverage for USFS fires. Additionally, 
USFS is analyzing the other alternatives in the draft study. We are 
continuing to implement night-flying helicopter operations through the 
use of State and local cooperators.
    Similarly, USFS is also making progress on the Forest Service Large 
Airtankers Strategy. The RAND Corporation has asked USFS to provide 
additional tactical information to refine the models being used, which 
has delayed the delivery of the RAND report. However, USFS expects the 
RAND report to become available around the same time as the Forest 
Service Large Airtanker Strategy is released. Due to the complexity of 
the issues in the interagency environment; the high costs of multi-year 
contracts in the current budget environment; and the agency's desire to 
be effective, efficient, and safe, the reports have been delayed to 
ensure we get it right. These reports will be provided to the Congress 
prior to their release to the public.

                         NEW PLANE ACQUISITION

    Question. I recognize that in this time of shrinking budgets that 
implementing a new night-time firefighting operation program or funding 
the acquisition of new planes will be a significant challenge. But the 
failure to address these problems is also becoming a burden to the 
taxpayer.
    Compared to fiscal year 2002 what are the per-plane operations and 
maintenance costs of USFS' firefighting fleet? Absent an investment in 
newer planes, how do you expect these costs to change in future fiscal 
years?
    Answer. The operations and maintenance costs per plane of USFS 
firefighting fleet have more than doubled since fiscal year 2002. In 
fact, in just 4 years, costs for daily airtanker availability have more 
than doubled--from just more than $15 million in 2007 to $35 million in 
2010. This trend is expected to continue. The increase in costs is 
directly related to the expense of maintaining the airworthiness and 
safety of these aircraft for the firefighting mission.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. Since the precipitous decline in the number of 
firefighting aircraft began in 2002, annual expenditures on suppression 
have skyrocketed and the 10-year average has continued to grow. To what 
extent do these two trends correlate and why?
    Answer. Annual expenditures on suppression activities are not only 
a function of what suppression resources are used but also other 
factors including weather conditions, location of the fire, fuel 
loadings, and overall fire season intensity and complexity. In the past 
several decades we have accumulated extreme fuels loads coupled with 
drought conditions in much of the West. This is where most of the fire 
activities occur and suppression expenses are accrued. The number and 
type of aviation assets in use do correlate with overall suppression 
costs, but the rapid increase in the cost to operate these aging planes 
overshadowed the respective decrease in the quantity under contract, 
and aviation assets are not the only factor in suppression costs. 
Projections from both climate and fire experts indicate we will have 
sustained, to above average fire conditions, in the near term. We 
expect suppression costs to stay the same.

                              NIGHT FLYING

    Question. As the Station Fire proved in 2009, night-time aerial 
firefighting capabilities are critically important to containing fires 
in the WUI. This is especially true in southern California where high-
value homes and property abut national forests and other public lands.
    What modifications to USFS operating agreements have been made to 
clarify that night-time aerial fire operations are permissible?
    Answer. Guidance has been provided to the regional foresters where 
cooperators are capable of performing night missions. The guidance is 
to update their local agreements, annual operations plans, and run 
cards to include these missions prior to commencing field operations.
    Question. What changes have been made to your incident commander 
training courses to reflect this change in policy?
    Answer. Incident Commanders have been briefed on the availability 
of this capability. A GO/NO GO checklist has been developed for 
aviation and incident commanders to complete prior to commencing any 
night operations on NFS lands.

                 ANGELES NATIONAL FOREST, MOUNT WILSON

    Question. Mount Wilson, which lies in the middle of the Angeles 
National Forest, houses a number of communications towers and 
structures. This highly valuable infrastructure was threatened during 
the Station Fire. In an effort to protect this infrastructure from 
future fires, LA County Supervisor Mike Antonovich and LA County Fire 
Chief Mike Freeman asked that you increase the brush clearance 
requirements at this location to 200 feet. This request was made on 
November 23, 2009.
    What steps have you taken to protect the valuable equipment on top 
of Mount Wilson?
    Answer. In 2005, 160 acres of fuels reduction work was completed in 
the Mount Wilson observatory and recreation site areas. The treatments 
included thinning, pruning, pile burning, and chipping.
    In 2008, the Los Angeles River District Ranger held a Mount Wilson 
stakeholders meeting to inform the stakeholders of the need for 
additional fuels work, and to attempt to raise the interest of the 
stakeholders to form a fire safe council in the Mount Wilson area. A 
Mount Wilson Fire Safe Council was formed in June 2008. Since that 
time, the forest has worked with that council to upgrade their water 
capacity and water systems. This includes repairing a large 530,000 
gallon water cistern so that it can store water to be used for fire-
suppression purposes. In fiscal year 2010, a $200,000 Fire Safe Council 
grant was divided among four other fire safe councils in the local 
area. The Observatory and the Mount Wilson television stations 
generally keep a large supply of stored water specifically intended for 
fire suppression, with a total combined capacity of more than 2 million 
gallons. Additionally, USFS has worked with local stakeholders to 
provide information on how and why to fireproof their structures and 
remove excess debris from their areas.
    The Station Fire of 2009 threatened the Mount Wilson area, During 
the fire a ``burn out'' was conducted north of the Mount Wilson area to 
help reduce the fuel build-up and create a ``black line'' around the 
area. The back fire stayed in the ground fuels and backed down the hill 
to the north, protecting the facilities. This was successful because 
the back fire stayed on the ground as a direct result of fuel reduction 
projects that had been completed in 2005.
    In May 2010, an environmental analysis was completed to implement 
an additional 736 acres of fuels reduction in the Mount Wilson area. 
This ongoing work will take approximately 3 to 5 years for completion 
and is being completed by Los Angeles County and USFS crews and 
includes fuels treatments such as thinning, pruning, and chipping.
    Question. Why have you failed to enforce the county standard 200-
foot brush clearance requirements at this location?
    Answer. USFS regional direction issued December 17, 2009 allows for 
100-foot defensible space around structures. However, permittees could 
only implement this new standard where applicable because many 
communication sites do not have 100 feet of brush to clear due to the 
presence of asphalt and concrete. All structures located at the Mount 
Wilson Observatory have at least a 100-foot of minimum defensible space 
and this standard has been implemented. We have achieved the 100-foot 
minimum defensible space clearance standard around the perimeter of all 
the communication site structures located at the Mount Wilson 
Observatory. We continue to have the goal of a 300-foot clearance. The 
forest has worked closely with Los Angeles County Fire to accomplish 
this effort.
    Question. Will you implement the 200-foot clearance requirement 
before the beginning of the 2011 fire season?
    Answer. Currently, the clearance is 200 feet on the south side of 
the communication sites, with a goal of 300 feet around everything. The 
forest supervisor of the Angeles National Forest has analyzed the 
situation, values at risk, and possible fire behavior and has made the 
decision to increase the defensible space clearance around the 
perimeter of the Mount Wilson Observatory and communication site 
structures to 300 feet. Also, the Mount Wilson Observatory received a 
National Science Foundation grant of $12,000 to complete hazardous fuel 
reduction work in their permit area. Additional appropriated funds just 
distributed to the Angeles National Forest allow for additional 
defensible space accomplishments to be achieved.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                      FOREST LEGACY PROGRAM (FLP)

    Question. In fiscal year 2011, the Forest Service (USFS) received 
only $53 million for FLP, just a little more than one-half of the 
budget request. This allocation was too little to finance the full list 
of 38 projects across the country. For fiscal year 2012 you are 
requesting funding for 46 projects, about 18 of which were on last 
year's list.
    Are you setting unrealistic expectations by identifying so many new 
projects for fiscal year 2012 when many fiscal year 2011 projects went 
unfunded? What do you think subcommittee should do with respect to the 
fiscal year 2011 projects the agency was not able to fund last year? 
Are they expected to get back in line, apply again, and wait another 
year or 2 or 3? Or should preference be given to those projects that 
were not fully funded last year and have second phase on your request 
list for fiscal year 2012?
    Answer. Consistent with the recommendations of the USFS Response to 
America's Great Outdoors report (March 21, 2011), the administration 
has expressed its desire to fully fund the Land and Water Conservation 
Fund, in response to the overwhelming public support for this program. 
The funding levels requested in fiscal year 2012 are consistent with 
the administration's goal. When the prioritized project list was 
developed for fiscal year 2012, we were still unaware of what the 
fiscal year 2011 appropriation would be. Certainly, this presented the 
States with a degree of uncertainty in how they should handle the 
fiscal year 2012 request for projects.
    Since 2002 through a nationally competitive process, we have 
developed a prioritized project list. Projects are funded in accordance 
with congressional appropriations. Some projects submitted in any given 
year may go unfunded. States with projects that fall below the 
available funding needed to be resubmitted in the following year. Based 
on this history, States anticipated that if a project did not receive 
funding in fiscal year 2011 it would need to be submitted again in 
fiscal year 2012.
    Selecting fiscal year 2011 lower-priority projects that were not 
funded by the Congress ahead of the high-priority projects on the 
fiscal year 2012 list will change the process that has been developed 
in consultation with the subcommittee and has been in place for nearly 
a decade. The process is designed to be open and transparent and 
facilitate dialogue with State partners and others. The fiscal year 
2012 list in the President's budget justification is the order of 
priorities developed at the time of publication (February 2011).
    Question. Do you think any Community Forest and Open Space projects 
will be completed this year? This program is something I fought for in 
the 2008 farm bill and I continue to hear from constituents as well as 
forest groups across the country that are interested in accessing it 
once the regulations are finalized.
    Answer. The Community Forest and Open Space Program (CFP) was 
appropriated $500,000 in fiscal year 2010 and $1 million in fiscal year 
2011. The final rule for CFP is undergoing clearance and we hope to 
publish the final rule in 2011. USFS plans to request applications 
shortly after the rule is published. We would like to award the first 
project later this year or in early 2012.

                        RESEARCH AND DEVELOPMENT

    Question. The Forest Research and Development (R&D) funding request 
from the administration has steadily decreased over the last few years. 
The fiscal year 2012 request is $295.8 million, less than the fiscal 
year 2011 and fiscal year 2010 requests which were $304.4 million and 
$300.6 million, respectively. The Congress increased these numbers to 
$312 million in fiscal year 2010 and $307 million in fiscal year 2011. 
These funds support the Northern Research Station (NRS), which serves 
the entire Northeastern region and the Midwest. NRS relies on these 
funds to support research for white nose syndrome, which continues to 
plague bats in Vermont and States across the country. R&D also seems 
critical to supporting responses to climate change, which was 
identified as a USFS priority for fiscal year 2012. Our maple syrup 
industry in Vermont is struggling because of warmer winters and earlier 
springs.
    Our maple syrup producers are also concerned that they will suffer 
even more though if something is not done to stop the spread of the 
asian longhorned beetle, which has already decimated other parts of the 
Northeast. NRS is also leading all research on this beetle for USFS. 
This forest pest poses an enormous threat if it reaches Vermont where 
it could devastate fall tourism, maple syrup, timber, greenhouses, and 
the State's nurseries.
    Question. These problems are not going away, so how can the agency 
justify decreasing R&D funding, especially for NRS, which serves such a 
large portion of the country?
    Answer. The fiscal year 2012 President's budget provides for a base 
level of funding to address priorities for research in climate change, 
forest inventory and analysis, watershed management and restoration, 
bioenergy and biobased products, urban natural resources stewardship, 
nanotechnology, and localized needs. The Research and Development 
Deputy Area, including NRS, has proposed the best-possible request to 
match science capacity and demands for services. We fully understand 
the critical needs in the 20 States of the Northeast and Midwest and in 
particular, the contemporary conservation issues facing Vermont.
    Clearly, the threat of major forest pests such as the asian 
longhorned beetle, the emerald ash borer and other pests and pathogens 
that affect vegetation and wildlife will test our ability to ensure 
that environmental health and community stability remain in harmony and 
that there will be available resources to conduct leading-edge science. 
USFS will do all that it can to ensure the forests of New England 
remain healthy and sustainable so the long-standing goal of ``keeping 
forests in forestry'' in that region shall remain intact.

                         FOREST HEALTH PROGRAM

    Question. Other cuts to programs, such as Forest Health on Federal 
Lands and Forest Health on Coop Lands, also affect insect and disease 
work. How can we be assured that our forests will be guarded against 
the spread of these growing problems with less funding for so many 
programs that address them?
    Answer. USFS recognizes the important work that is done through our 
forest health programs. The President's fiscal year 2012 budget is 
formulated to balance the activities of different program areas, with 
some program reductions necessary to exercise appropriate fiscal 
prudence in these difficult economic times. The agency will continue to 
focus on the highest-priority prevention and suppression needs, 
including those for emerald ash borer, asian longhorned beetle, sudden 
oak death, western bark beetles, oak wilt, root diseases, hemlock 
woolly adelgid, white pine blister rust, sudden oak death, Port Orford 
cedar root disease and southern pine beetle; as well as slowing the 
spread of gypsy moth.
    Also, the agency is committed to the Secretary's ``all lands'' 
vision for forest conservation and recognizes the need for greater 
collaboration across Federal, State, and private forestlands and the 
importance of maintaining working forest landscapes for rural 
economies. The agency will provide incentives for maximizing this ``all 
lands'' approach by utilizing a mix of programs to conduct work to 
address insect, disease, and wildfire risk on Federal lands and to 
expand this work on all lands while also involving programs beyond 
these budget line items.

                       RURAL DEVELOPMENT PROGRAM

    Question. I am concerned how some of the USFS budget cuts will 
affect Vermont programs. The State and private forestry program, and in 
particular your rural development program is one that has yielded great 
benefits to Vermont at very low cost. USFS, through those programs has 
helped us realize real and significant economic development outcomes by 
supporting development and marketing of value added, locally harvested 
forest products. One of the most successful programs in Vermont has 
been support for the wood products collaborative funded through as a 
rural development through forestry project, within the economic action 
program. Many small but very effective forest based economic 
development initiatives have succeeded as a result.
    Will forest-related economic development programs be eligible to 
compete for funds through these or other programs within the fiscal 
year 2012 funding request? If not, how else is the USFS supporting 
these efforts that are so vitally important to Vermont's private 
forestland owners?
    Answer. The fiscal year 2012 President's budget does not propose 
funding for the economic action program, so Vermont would not be able 
to compete for funds through this program in fiscal year 2012. However, 
the USFS has other programs that support working forest landscapes for 
rural economies. In fiscal year 2012, the agency is requesting funding 
for the community wood to energy competitive grant program, which would 
provide State, tribal, and local governments support in developing 
community wood energy plans. In addition, the agency continues to 
support a small biomass grant program for the 35-State eastern hardwood 
region at the Wood Education Resource Center in West Virginia focused 
on maintaining or expanding the economic competitiveness and 
sustainability of wood products manufacturing businesses. The agency 
also continues to fund the competitive Woody Biomass Utilization Grant 
program which provides funding to help build capacity for biomass 
utilization in support of fuels reduction and restoration.
    The agency's other State and private forestry programs also support 
forest landowners by providing funds for technical and financial 
assistance to monitor, assess and mitigate forest health conditions on 
non-Federal lands through the forest health cooperative program; by 
providing funds for fire management; firefighter training, and fuels 
treatment on non-Federal lands through State and volunteer fire 
assistance; and providing private forest landowners with assistance to 
develop comprehensive, multi-resource management plans so they can 
manage their forests for a variety of products and services through the 
Forest Stewardship program.

                            STAFFING LEVELS

    Question. I notice that the USFS full-time equivalent (FTE) 
employment will be at an all-time low with this request. It appears you 
will have 1,819 fewer employees than you did in fiscal year 2010. Many 
of these loses are in important programs such as wildlife and fisheries 
habitat management, forest products, vegetation and watershed 
management, and wildland fire management.
    How do you plan to carry out your critical missions with such low 
staffing? Are your programs becoming more efficient or will you rely on 
more seasonal employees to carry out these activities?
    Answer. The President's proposed fiscal year 2012 budget indicates 
a reduction of 1,819 FTE across the agency. However, not all programs 
would be equally affected nor would this necessarily result in a 
reduction in outputs. Some areas would increase. The President's 
proposed fiscal year 2012 budget shows an estimated increase of 167 FTE 
in National Forest System areas from 11,547 in fiscal year 2011 to 
11,714 for fiscal year 2012.
    Along with these changes the President's budget would include 
integrating activities such as wildlife and fisheries management, 
forest products, vegetation and watershed management, and portions of 
wildland fire management and road decommissioning into a single program 
of work referred to as Integrated Resource Restoration (IRR). 
Integrating these activities under IRR is expected to lead to increased 
efficiencies in performance and levels of outputs. The wildland fire 
management program will have similar staffing levels as compared to 
previous years.
    Through the IRR process, there will be an emphasis on integrated 
priorities. In some cases, there will be opportunities to hire more of 
the seasonal workforce or local contractors to help implement the 
priority work on the ground. A mix of full-time, seasonal staff, and 
contractors will continue to be available to meet wildland fire 
response requirements.

            NEW HEADQUARTERS GREEN MOUNTAIN NATIONAL FOREST

    Question. Will USFS take advantage of the cost savings in deferred 
rent payments by completing construction of the new headquarters for 
the Green Mountain National Forest this year?
    Answer. The new headquarters for the Green Mountain National Forest 
will not be completed this year. The headquarters office for the Green 
Mountain National Forest is currently under lease, which runs through 
August 2014. Cost saving derived from deferred rent payments, along 
with project planning and design for a new headquarters office have not 
been initiated.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

                          10-YEAR TIMBER SALES

    Question. In 2008, the Forest Service (USFS) committed to preparing 
and offering four 10-year timber sales with a volume of 150 to 200 
million board feet each in the Tongass National Forest. The purpose of 
these timber sales was to provide sufficient assured volume for a 
single-shift at four medium-size manufacturing facilities. Without the 
volume assurance, the industry cannot make the investments necessary to 
upgrade their existing mills or to construct a facility that could 
process the low-grade timber in the region. The Congress has repeatedly 
made available pipeline funds to allow USFS to prepare these 10-year 
sales and other timber sales. Now we are told that the agency plans to 
convert two of the 10-year timber sales to Stewardship contracts and to 
offer only one-half of the promised volume and to offer that reduced 
volume in small parcels.
    Can you explain what happened to the commitments for each of the 
four 10-year sales?
    Answer. In response to Under Secretary Mark Rey's direction in 
September 2008 to develop a work plan and proposed budget to offer four 
10-year timber sales, each averaging 15-20 million board feet per year, 
the Tongass National Forest identified several areas to analyze for 10-
year sale programs.
    Two of the four 10-year timber sales, for which pipeline funds have 
been received, are currently in the planning stages, including National 
Environmental Policy Act (NEPA) compliance, and will continue to move 
forward in fiscal year 2012 and fiscal year 2013 as scheduled. 
Opportunities to incorporate additional restoration activities within 
the project areas are being explored. The volume of timber to be sold 
with these two projects, including volume from stewardship contracting, 
is currently being estimated as a part of the NEPA analysis that is 
ongoing. These two projects are part of the overall transition 
framework for southeast Alaska announced by the Department of 
Agriculture in May 2010.
    Question. Do you realize that when USFS walks away from the 
commitments that it made, you risk the Congress walking away from 
funding many of the priorities the agency hopes to pursue?
    Answer. The agency will work to provide sufficient supply of timber 
volume over the course of 5 years to ensure the industry remains 
solvent. The agency shares the objective of keeping a viable forest 
products industry in place in southeast Alaska, a necessary ingredient 
to achieve the Secretary's restoration goals and the transition 
framework.

                            LAND ACQUISITION

    Question. The agency has testified to the Congress that USFS has 
60-80 million acres of unhealthy productive forestland at risk to 
insects, disease, and wildfire. It has become increasingly apparent 
through missed timber targets, reduced outputs, and a shift away from 
active forest management that USFS cannot take care of the 193 million 
acres it already has.
    In light of these problems, can you explain the reason the agency 
has increased its request for land acquisition programs by 160 percent, 
from roughly $86 million to $225 million?
    Answer. The fiscal year 2012 budget justification supports 
President Obama's America's Great Outdoors (AGO) initiative to 
strengthen citizen and community connections to the outdoors, including 
the national forests and grasslands. The fiscal year 2012 budget 
proposes program increases to ensure the success of the AGO initiative. 
Those programs include:
  --the Forest Legacy Program;
  --community forest and open space conservation program;
  --urban and community forestry;
  --land acquisition; and
  --recreation, heritage, and wilderness.
    Land acquisition serves an important role in meeting the 2012 
strategic plan objective to protect forests and grasslands from 
conversion to other uses. We will focus on acquiring the highest-
priority lands that serve both the President's AGO initiative and the 
Department's strategic plan for fiscal year 2010-2015.
    Land acquisition can also reduce management costs by consolidating 
landownership, avoiding further fragmented development within forest 
boundaries which can exacerbate fire, insect, and disease management 
challenges. Land acquisitions sought by USFS have broad support from 
stakeholders at the local level and ensure water quality, recreational 
access, wildlife habitat, and other public benefits. USFS actively 
engages in land exchanges where there are opportunities to adjust 
Federal ownership patterns while conveying lands to non-Federal 
entities.
    Land exchanges, acquisitions, right-of-way acquisitions, and 
limited sales of USFS facilities and adjacent land are all important 
land adjustment tools to promote the long-term health and 
sustainability of the national forests and grasslands. These actions 
will support a healthy, vibrant outdoor legacy for generations to come 
in alignment with the AGO and the Department priorities for achieving 
an ``all-lands vision'' for forest conservation.

                         FACILITIES MAINTENANCE

    Question. At the same time, you've also cut your facilities 
maintenance programs by $31 million and your roads program by $37 
million. I think these priorities are simply misplaced at a time when 
we're looking at deep cuts in your core operations. How would you 
respond to such criticism?
    Answer. The fiscal year 2012 President's budget reflects difficult 
choices we need to make to reduce the deficit while supporting targeted 
investments. This decrease is achieved through several program re-
combinations and streamlining to increase operations and efficiencies. 
Our fiscal year 2012 budget request reflects four priorities:
  --enhancing water resources;
  --responding to climate change;
  --community based stewardship; and
  --jobs in rural communities.
    Emphasis will be on eliminating health and safety risks at agency-
owned buildings and recreation sites and reducing critical deferred 
maintenance on the aging infrastructure. Priority will be placed on 
repairing and improving those facilities that receive public use and 
are critical to supporting agency operations. With regard to roads the 
agency will focus on the work to ensure public safety, and critical 
access needs.

                       ALASKA SUBSISTENCE PROGRAM

    Question. Your budget proposes to eliminate the Alaska subsistence 
program. How will you carry out these responsibilities, if at all, with 
no funding?
    Answer. At this time, there are no changes being implemented for 
the Alaska subsistence program. The subsistence program delivery in 
fiscal year 2012 would be similar to that implemented in fiscal year 
2010. The subsistence program is a Federal inter-agency responsibility 
administered by USFS, Fish and Wildlife Service, Bureau of Land 
Management, National Park Service, and the Bureau of Indian Affairs. 
USFS will continue to meet its subsistence program management 
responsibilities under Alaska National Interest Lands Conservation Act 
(ANILCA).
    Question. Are you simply going to assign other employees to add 
this to their current duties?
    Answer. We expect to continue to manage the program with adequate 
personnel as managed in recent years and consistent with meeting our 
responsibilities under ANILCA.

                     LAND MANAGEMENT PLANNING RULE

    Question. USFS expects to issue its new planning rule by the end of 
the year. I have a number of questions about certain aspects of the 
proposed rule.
    Would you please explain ``species of conservation concern'' as 
discussed in the draft land management planning rule? It seems from the 
definition provided in the draft that a ``responsible official'' might 
have overly broad latitude to deem any number of species as a ``species 
of conservation concern'' without undergoing sufficient scientific 
review.
    Answer. The intent of the provisions in the new draft planning rule 
is to provide for plant and animal diversity, and to keep common 
species common, contribute to the recovery of threatened and endangered 
species, conserve candidate species, and protect species of 
conservation concern. Responsible officials would be required to 
develop components in plans, using a two-pronged approach of overall 
habitat (ecosystem and watershed) maintenance or restoration combined 
with targeted measures designed to address the needs of specific 
species (section 219.9, Federal Register/Vol. 76, No. 30, February 14, 
2011/Proposed Rules, p. 8492). By including these requirements, the 
draft rule recognizes that there will be circumstances outside of the 
agency's capability that may impact particular species. The agency 
believes that the proposed approach is both more reflective of the 
National Forest Management Act, and more implementable than the 1982 
planning rule.
    The proposed rule requires that the best available scientific 
information be considered throughout the rule-making process, and the 
responsible official would have to document how the most relevant, 
reliable, and accurate science was appropriately interpreted and 
applied, including in determining which species are ``species of 
conservation concern'' for the unit. USFS directives would contain 
specific criteria for selecting species of conservation concern. For 
example, State lists of endangered, threatened, rare, endemic, or other 
classifications of species, such as those listed as threatened under 
State law, may be used to inform the selection of species of 
conservation concern for the unit.
    The proposed rule's requirement for species of conservation concern 
would be to maintain or restore ecological conditions to maintain 
viable populations of species of conservation concern within the plan 
area, within the agency's authority and consistent with the inherent 
capability of the plan area. Where a viable population of a species of 
conservation concern already exists within the plan area, the 
appropriate ecological conditions needed to maintain the long-term 
persistence of that species would continue to be provided.
    The responsible official would identify ecosystem-level plan 
components to provide the overall ecological conditions needed by a 
species of conservation concern: for example, restoration of mature 
longleaf pine habitat for red-cockaded woodpeckers. In addition, the 
responsible official would identify specific ecological conditions 
needed by a species: for example, providing artificial nesting cavities 
for red-cockaded woodpeckers while longleaf pine stands that can 
provide natural nesting cavities are being restored.
    At times, factors outside the control of the agency will prevent 
the agency from being able to maintain a viable population of species 
of conservation concern within the plan area: for example, some of our 
southern forest units are too small to provide nesting habitat for the 
number of pairs needed to provide for a viable population of red-
cockaded woodpeckers solely within the boundaries of the unit. In such 
cases, the proposed rule would require that the agency provide plan 
components to maintain or restore ecological conditions within the plan 
area for that species, and by doing so to contribute to the extent 
practicable to a viable population across its range.
    Additionally, the responsible official would be required to reach 
out beyond National Forest System (NFS) boundaries, to coordinate 
management with other land managers for the benefit of a species across 
its range. This requirement does not impose any management requirements 
or attempt to impose management direction on other land managers--
rather, it imposes a duty on the responsible official to reach out to 
work with others and to coordinate management to the extent 
practicable. This requirement recognizes that species move across the 
landscape, and as habitat and ecological conditions change, greater 
cooperation among land managers will be necessary to conserve 
individual species.
    Question. What is meant by ``landscape planning'' in the land 
management planning rule?
    Answer. The proposed rule takes an ``all-lands'' approach to 
planning. What this means is that the responsible official would need 
to understand the context for management within the broader landscape, 
to determine the best management plan for a specific unit within the 
NFS.
    In the assessment phase, responsible officials would draw on 
information from many sources to understand the social, economic, and 
ecologic conditions and trends relevant to the plan area, and to 
identify the distinctive roles and contributions of the unit in 
providing various multiple uses or benefits to the local community, 
region, and Nation. In the planning phase, responsible officials would 
provide opportunities for other Government agencies and land managers 
to participate, would review the planning and land use policies of 
other governmental entities where relevant to the plan area, and would 
coordinate with other planning efforts to the extent practicable and 
appropriate. In the monitoring phase, responsible officials would 
assess information and data from monitoring on both the unit and the 
broader landscape to determine whether any change to management within 
the boundaries of the plan area might be warranted.
    This approach recognizes that management of national forests and 
grasslands can both impact and be impacted by management or conditions 
on the lands that surround the unit and that management can be improved 
by understanding that context and communicating with other land 
managers.
    Question. How do you envision USFS managing at the ``landscape'' 
level, ``irrespective of ownership or other artificial boundaries?''
    Answer. This ``all lands'' approach recognizes that management 
issues do not stop and start on a property, political, or other 
boundary line. The primary trends and threats that face our Nation's 
forests such as:
  --forest fragmentation;
  --increased urbanization and conversion of forestlands;
  --the effects of climate change;
  --severe wildfire; and
  --the spread of invasive species cross all jurisdictional boundaries.
    To be successful in addressing these issues we must work with 
landowners and interested parties to conserve, protect, and enhance the 
Nation's forests.
    USFS land management authority applies within national forest 
boundaries, and USFS manages lands within NFS and its authorities. 
Consistent with Federal law, USFS cooperates with adjacent landowners, 
local government entities, and others on a range of land management 
issues, including fire suppression, invasive plant control, law 
enforcement, recreational use and access, and other shared priorities. 
USFS, through its planning process and through project specific 
management actions, consults and coordinates with adjacent landowners 
to improve the health, sustainability, and productivity of national 
forests and surrounding lands.
    USFS also provides technical and financial assistance to landowners 
and resource managers to help sustain the Nation's urban and rural 
forests. The USFS works with our State partners to address those 
priority landscape-level issues that they identified in their Statewide 
forest resource assessments and strategies through cooperation and 
coordination across jurisdictional boundaries. The primary trends and 
threats that face our Nation's forests such as forest fragmentation, 
increased urbanization and conversion of forestlands, the effects of 
climate change, severe wildfire, and the spread of invasive species 
cross jurisdictional boundaries. To be successful in addressing these 
issues we must work with landowners and interested parties to conserve, 
protect, and enhance the Nation's forests.
    Question. And, do you believe that property lines are ``artificial 
boundaries?''
    Answer. USFS respects all boundaries, private property rights, and 
understands the limits of the agency's land management authority. NFS 
employees survey, mark, manage, and protect national forest and 
grassland boundaries in order to protect the public's investment in the 
national forests and grasslands. Property lines are legal landownership 
boundaries whose location and extent is defined by the legal land title 
ownership of the United States and the adjoining landowners. USFS does 
not assert management authority on other Federal, State, tribal, 
county, local, private, or corporate lands lying within the exterior 
perimeter boundary of NFS. USFS does actively seek opportunities to 
work cooperatively and collaboratively with adjoining landowners and 
communities to protect both public and private estates.
    Question. How far from USFS boundaries do you think your agency's 
influence should extend?
    Answer. USFS respects all boundaries, private property rights, and 
the limits of the USFS' land management authority. The primary trends 
and threats that face our Nation's forests (such as forest 
fragmentation, increased urbanization and conversion of forestlands, 
the effects of climate change, severe wildfire, and the spread of 
invasive species) cross jurisdictional boundaries. To be successful in 
addressing these issues we must work with landowners and interested 
parties to conserve, protect, and enhance the Nation's forests.
    Consistent with USFS' authority and direction, the State and 
private forestry, research and development, and international programs 
provide technical assistance, grants, and other support to non-Federal 
forests and grasslands throughout the United States and 
internationally. Together USFS programs improve forest health, 
sustainability, and productivity, whether in an urban forest in 
Chicago, on private forest land in northern New England, or in the 
rainforests of Africa, and the benefits to the American people of these 
investments are substantial. Likewise, the long-term health and 
resilience of national forests and grasslands directly affect 
surrounding non-Federal lands, communities, and waters that are 
adjacent or downstream. Therefore, we implement management decisions to 
improve the long-term health of broader ecosystems and watersheds as 
well as respecting private property rights and the broader interests 
within communities, States, and regions.

                         ACCESS TO ALASKA LANDS

    Question. Just recently small placer miners in Alaska have been 
informed that the USFS is planning to restrict motorized access to a 
host of mining claims in Alaska in the Chugach National Forest and also 
in the Tongass National Forest. While some of this may be the result of 
the USFS moving to close the use of logging roads no longer needed for 
future timber sales based on a 2008-2009 study, some of the complaints 
appear unconnected to budgetary concerns about the lack of funding for 
maintenance of traditional access routes. Clearly access across lands 
protected by the ANILCA is protected by the 1980 law, but the 
complaints about access denial for mineral operations in the Chugach 
National Forest is rapidly increasing.
    What exactly is the reason for the attempt to close access?
    Answer. The Chugach National Forest closed a number of roads and 
trails to motorized access in 2002, as directed by the unit's land 
management plan, which was revised that year. Those roads and trails 
were closed based on environmental and economic concerns and were done 
so with the appropriate level of NEPA analysis and documentation. 
Motorized access to mining operations in areas otherwise closed to 
motorized use on the Chugach National Forest is routinely allowed for 
mining purposes by written authorization under a mining plan of 
operations, consistent with 36 CFR 228.4.
    Question. Under what scope of authority is the USFS moving to deny 
access?
    Answer. Land management plans are completed under authority of the 
requirements of the Forest and Rangeland Renewable Resources Planning 
Act of 1974, as amended by the National Forest Management Act of 1976.
    Question. And how can small miners access their valid claims to 
minerals under the mining law without having the right to motorized 
access on routes they have used for many decades?
    Answer. Prior to mining activities, the miners must develop and 
submit a plan of operations, which would identify motor vehicle use 
needs. The plan of operations requires NEPA compliance and would enable 
the USFS to identify where motor vehicle use is reasonable pursuant to 
the proposed mining activities. Stipulations may include seasonal 
restrictions to protect resource values, such as, road or trail 
improvements and surfaces due to the particular and unique needs of the 
mining operating plan.
    Forest visitors including those engaged in recreational mining or 
panning are subject to the same motorized access restrictions. USFS has 
provided maps and brochures to the Gold Prospectors Association of 
America showing locations open to the public that are easily accessible 
near open roads and/or that can be accessed with off-road vehicles.

                         CONCLUSION OF HEARINGS

    Senator Reed. If there are no further questions or 
comments, then the hearing is concluded.
    [Whereupon, at 3:58 p.m., Thursday, May 19, the hearings 
were concluded, and the subcommittee was recessed to reconvene 
subject to the call of the Chair.]

</pre></body></html>
